FOLLOW-UP AUDIT OF THE FEDERAL
  BUREAU OF INVESTIGATION’S
  EFFORTS TO HIRE, TRAIN, AND
 RETAIN INTELLIGENCE ANALYSTS

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-30
              April 2007
       FOLLOW-UP AUDIT OF THE FEDERAL BUREAU OF
   INVESTIGATION’S EFFORTS TO HIRE, TRAIN, AND RETAIN
                INTELLIGENCE ANALYSTS


                              Executive Summary

      Prior to the September 11, 2001, terrorist attacks, the Federal
Bureau of Investigation (FBI) operated primarily as a law enforcement
agency with a limited intelligence capability. After the terrorist
attacks, the FBI recognized the need to improve its intelligence
capacity, not only through collecting information but also analyzing it,
connecting it to other vital information, and disseminating the results
to others. To improve in these areas, during the past 5 years the FBI
has significantly increased the number of FBI intelligence analysts. As
of September 2006, the FBI had over 2,100 intelligence analysts, split
almost evenly between its Headquarters and 56 domestic field offices.
The FBI’s analysts perform a critical role in helping transform the FBI
into an agency with law enforcement and intelligence capacities, both
of which are required in order to meet the FBI’s highest priority of
preventing future terrorist attacks.1

Audit Approach

       In May 2005, the Office of the Inspector General (OIG) issued an
audit report that examined the hiring, allocation, training, utilization,
and retention of intelligence analysts.2 In the current review, we
examined the FBI’s progress in implementing the recommendations
from our May 2005 report, and we also examined the FBI’s continuing
efforts to improve its hiring, training, retention, and use of intelligence
analysts.

      The OIG’s May 2005 report contained 15 recommendations to
improve the FBI’s intelligence analysis program. The FBI concurred
with all of the recommendations and began addressing many of them.
Based on the FBI’s reported actions, we closed 5 of the 15

       1
          When we use the term “analysts” in this report, we are referring to
intelligence analysts. The FBI also has other types of analysts, such as financial
analysts.
       2
          Department of Justice, Office of the Inspector General, The Federal Bureau
of Investigation’s Efforts to Hire, Train, and Retain Intelligence Analysts, Audit
Report Number 05-20, May 2005.



                                         -i-
recommendations. However, as of December 2006, 10 of the 15
recommendations in our May 2005 audit report remained open. The
10 open recommendations generally involve establishing hiring goals
for intelligence analysts, developing a threat- or risk-based
methodology for determining the number of intelligence analysts
needed, allocating intelligence analysts, and improving the training
and utilization of analysts.

      In performing this follow-up audit, we interviewed 60 intelligence
analysts and 16 intelligence analyst supervisors in FBI Headquarters
and in 4 field offices to follow up on our survey of all FBI intelligence
analysts in our prior audit. We also interviewed FBI officials from the
Directorate of Intelligence and the Administrative Services, Training
and Development, and Finance Divisions. In addition, we reviewed
documents related to the budgeting, hiring, training, utilization, and
retention of intelligence analysts.

Results in Brief

      This follow-up audit found that the FBI has made progress in
improving the hiring, training, utilization, and retention of intelligence
analysts, although in some areas the progress has been slow and
uneven.

       For example, the FBI has made progress in its utilization of
intelligence analysts. In our prior audit we found that intelligence
analysts too often were assigned to perform routine administrative
rather than analytical tasks. In this follow-up review, we found that
this underutilization of analysts has largely been corrected. The FBI
has also kept the attrition of analysts at a reasonable level and has
begun conducting exit surveys that should provide data to help the FBI
further improve the hiring, training, utilization, and retention of its
intelligence analysts. In addition, the FBI continues to augment the
size of its intelligence analyst workforce by hiring qualified candidates.
As we found in our prior audit, analysts continue to express high levels
of satisfaction with their work assignments and believe they are
making important contributions to the FBI’s mission.

      Yet, the FBI has made slow progress in successfully
implementing several other recommendations of our previous report.
For example, the FBI has not:




                                   - ii -
      •   used threat- and risk-based criteria to determine the number
          of analysts needed to meet its mission or to allocate analysts
          where they are most needed;

      •   established hiring goals based on the projected need for
          additional analysts, forecasted attrition, and the FBI’s ability
          to hire, train, and utilize new analysts;

      •   assessed which tasks being performed by analysts could be
          more efficiently performed by other support personnel and,
          based on that assessment, developed a strategic workforce
          plan for intelligence support personnel;

      •   provided training to all special agents on the role and
          capabilities of intelligence analysts; and

      •   developed succession and retention plans and strategies for
          analysts that include measurable goals.

Further, we identified several additional, related concerns in our
current audit regarding intelligence analysts:

      •   Although the FBI continues to make progress in hiring
          qualified intelligence analysts, it did not meet its hiring goal
          for analysts in fiscal year (FY) 2006.

      •   The average time to hire an intelligence analyst has increased
          from about 19 weeks in FY 2004 to 31 in FY 2006.

      •   The FBI continues struggling to design a satisfactory training
          program for its intelligence analysts. For example, we found
          that the current introductory training for analysts does not
          stress the specific job skills required to perform the job.

      •   A strong professional divide between special agents and
          analysts impedes the collaboration needed to effectively meet
          the FBI’s mission.

      •   Sixty-five percent of the analysts we interviewed plan to stay
          with the FBI for at least 5 years. However, the significant
          number of analysts who plan to leave or are uncertain if they
          will stay warrants increased attention to developing retention
          strategies.



                                    - iii -
       The following sections provide greater details on these findings.

Hiring Intelligence Analysts

       The FBI has increased the number of intelligence analysts by
54 percent since 2004. Although the FBI remains 400 analysts below
its FY 2006 funded staffing level (FSL) of 2,574, the vacancy rate has
decreased from 32 percent in FY 2004 to 16 percent in FY 2006.3 The
FBI conducted a hiring “blitz” in early 2005 that used a nationwide
recruiting strategy and attracted over 11,000 applicants, of which over
300 were interviewed. During FY 2006, the FBI hired 375 intelligence
analysts, bringing the total number of intelligence analysts to 2,174.

       By replacing its former decentralized hiring process, the FBI’s
nationwide recruitment strategy allowed it to consider and process a
greater number of candidates to meet its aggressive hiring goals. In
addition, the strategy enabled all candidates to apply to the same job
posting rather than to separate postings for vacancies throughout the
FBI. In another initiative, the FBI sought experienced intelligence
professionals to fill higher-graded positions within Headquarters
operating divisions. During this latter hiring initiative, the FBI received
about 4,100 applications, interviewed 350, and selected 100. Aiding
the FBI’s ability to attract intelligence analysts since our last audit was
a legal exemption it received which allowed a higher grade progression
for FBI intelligence analysts, placing the FBI on par with other
intelligence agencies.4

     The table below shows the total number of FBI analysts hired
and on board from FY 2001 through FY 2007, projected.




       3
         The FSL is the number of positions available in a given year based on that
year’s appropriation.
       4
            Legislation entitled Making Appropriations for Foreign Operations, Export
Financing, and Related Programs for the Fiscal Year Ending September 30, 2005, and
for Other Purposes, signed on December 8, 2004, provided the FBI with additional
flexibility to hire and retain highly skilled intelligence personnel through an
amendment to Title 5 of the U.S. Code.



                                       - iv -
      Number of Intelligence Analysts Hired and On-board
                from FY 2001 through FY 2007

                                                         On-board
            Fiscal Year              Hired a
                                                        (end of FY)
                2001                    46                  1,023
                2002                    98                  1,012
                2003                   265                  1,180
                2004                   349                  1,413
                2005                   678                  1,998
                2006                   375                  2,174
                2007             250 projected

     Source: OIG based on FBI data

     Note (a): The number of intelligence analysts includes new hires and
     transfers from other FBI positions.

       However, the speed with which new intelligence analysts can
begin work is slowed by the time required to complete the hiring
process. Due to the nature of the FBI’s work, all FBI employees must
qualify for a top-secret security clearance before they can begin their
service. After applicants receive a conditional offer of employment,
the background investigation process begins. The investigation
includes a drug test, a polygraph, and an extensive investigation into
the applicant’s credit history, drug use, personality, and any legal
violations. As shown in the table below, we found that from FY 2004
to FY 2006, the average time from when the job announcement closes
until the intelligence analyst candidate enters on duty increased from
approximately 132 to 217 days. Several FBI managers stated that the
lengthy screening process might cause candidates to lose patience and
accept employment elsewhere.




                                     -v-
                  Average Number of Days to
                   Hire Intelligence Analysts

               Time Period             Average Number
                                           of Days
                  FY 2002                    133
                  FY 2003                    167
                  FY 2004                    132
                  FY 2005                    160
                  FY 2006a                   217

            Source: OIG based on FBI data

            Note (a): FY 2006 data is through August 29, 2006.

       Another concern is the FBI’s lack of threat and risk-based criteria
to determine the number of analysts needed to meet the FBI’s
mission, as we recommended in our prior report. We also
recommended that the FBI base hiring goals on the projected need for
additional analysts, forecasted attrition, and the FBI’s ability to hire,
train, and utilize new analysts. Although the FBI agreed with these
recommendations, it has not yet implemented them. Instead, the FBI
bases its hiring goals on the number of positions allowed by the
budget, but it does not base its budget request on an objective
assessment of the number of intelligence analyst positions required to
meet the FBI’s goals.

       In addition, the FBI does not use threat or risk assessments to
allocate all of the hired analysts throughout the FBI. Once hired,
analysts are assigned to various Headquarters divisions or offices or to
field offices. We found that the FBI’s methodology for allocating new
analysts varies. In Headquarters, the allocation of new intelligence
analysts is based on filling any vacancies stemming from the historical
budget-driven allocation of positions, modified by managers’ expressed
needs and requests for additional positions. The FBI fills field office
vacancies similarly. However, additional positions allowed by the
budget – known as enhancements – are now allocated based on a
threat and risk assessment. We believe that using threat and risk
criteria for field office enhancements is a step in the right direction.
However, the recommendation in our prior report calls for developing
and implementing a threat- or risk-based methodology for allocating
intelligence analyst positions across both FBI field offices and
Headquarters divisions.




                                    - vi -
Training Intelligence Analysts

       Over the past 5 years, the FBI has struggled to develop a
suitable training curriculum for intelligence analysts. In October 2001,
the FBI established the College of Analytical Studies (CAS) at the FBI
Academy in Quantico, Virginia. The first course offered was the 5-
week Basic Intelligence Analyst (BIA) course held in FY 2002. As a
result of student feedback and poor attendance at the BIA, a new 7-
week introductory level course for intelligence analysts, called
Analytical Cadre Educational Strategy 1 (ACES-1), replaced the BIA in
September 2004. In November 2004, the FBI added ACES 1.5 to train
intelligence analysts who had already been on board with the FBI prior
to the establishment of the analyst training curriculum.

       In FY 2006, the FBI reconfigured the ACES training into a 9-
week program, called Cohort, which will replace both ACES courses
once all analysts who entered on duty prior to 2005 complete ACES.
The first 5 weeks of Cohort is designed for new intelligence analysts,
language analysts, and other intelligence professionals who comprise
the FBI’s Intelligence Career Service. Immediately following the 5-
week program, analysts receive an additional 4 weeks of specialized
intelligence training. Included in those 4 weeks is one 4-hour joint
training exercise between new analysts and new special agents, which
is the only combined training for both groups of employees.

       As of August 2006, 2,010 analysts had attended basic training:
885 analysts attended the ACES-1 class, 733 attended the ACES 1.5
class, and 392 attended Cohort.

       However, our interviews found continued dissatisfaction with the
intelligence analyst training courses. Of the 60 analysts we
interviewed, 55 percent said that the basic training does not prepare
them to perform the tasks required of their positions, such as writing
intelligence assessments or preparing intelligence information reports.
Additionally, many of the supervisory analysts we interviewed stated
that intelligence analysts need better training in preparing intelligence
products and that supervisors spend considerable time revising
multiple drafts of analysts’ written work in order for it to be correct.

      A senior FBI training official said that the new Cohort class is
nearly identical to the ACES course and that instead there needs to be
more specialized training in areas such as counterterrorism or criminal
investigations. Senior managers within the Directorate of Intelligence
also told us that intelligence analyst training is inadequate. The


                                  - vii -
Intelligence Directorate’s Assistant Director told us he wants to
analyze the skills that analysts require and determine what additional
training is needed to develop those skills. However, he said he does
not want to develop a new course if training is available through other
agencies and if FBI employees can attend.

Divide between Analysts and Agents

       In discussing with intelligence analysts and their supervisors how
analysts are being utilized, we found a recurring theme of a strong
professional divide between analysts and special agents, and that
special agents tend to misunderstand the functions and capabilities of
intelligence analysts. Eighty percent of the analysts we interviewed,
and all the analysts’ supervisors we interviewed, stated that special
agents misunderstand the functions and capabilities of intelligence
analysts at least some of the time. Although the data shows some
improvement since our 2005 report, analysts still frequently reported
that the two groups of employees tend not to interact as professional
equals.

       A unit chief in the Intelligence Career Management Section told
us that field office managers are responsible for stressing to special
agents the importance of working effectively with intelligence analysts.
Yet, in our prior report we had recommended that all special agents –
not just new agents – receive training on the role and capabilities of
intelligence analysts. However, other than a brief exposure through
one joint exercise in new analyst and new special agent training, FBI
special agents receive no formal training in the function and proper
utilization of intelligence analysts.

Retaining Intelligence Analysts

       The FBI has been successful in retaining its intelligence analysts,
and we believe the overall attrition rate is reasonable for an
organization of the FBI’s size. As shown in the following chart, the
attrition rate for intelligence analysts from FYs 2002 to 2004 ranged
from 8 percent to 10 percent; for FYs 2005 and 2006, the attrition rate
was 6 and 9 percent, respectively.




                                 - viii -
                  Attrition rates from FY02 through FY06

                            10
                            8

                Attrition   6
                  rate      4
                            2
                            0
                                 FY02   FY03   FY04   FY05   FY06
                                           Fiscal Year

            Source: OIG based on FBI data

      We found that the attrition rate for intelligence analysts in FY
2006 was higher at Headquarters than in the 56 field offices – 12
percent compared to 5 percent. This difference may be due to greater
employment opportunities for intelligence analysts in the Washington,
DC, area, but this significantly higher attrition rate warrants the FBI’s
attention.

      Of the 60 intelligence analysts we interviewed, 65 percent told
us they plan on staying with the FBI for at least the next 5 years,
which is similar to the finding of 63 percent in our 2005 report.
Twenty percent said they are not likely to stay for 5 years, and the
remaining 15 percent were uncertain. These percentages were also
similar to our prior report (at 22 percent and 14 percent, respectively).

      Analysts who said they plan to stay with the FBI cited various
reasons, such as they are proud to work for the FBI, they enjoy the
work performed, and they are pleased with whom they work. Analysts
who said they do not expect to stay cited two main reasons:
retirement and career concerns. The following table compares data
from our 2005 report to our current audit on the likelihood of analysts
remaining with the FBI.




                                         - ix -
       Intelligence Analysts Planning to Stay With the FBI

          Likelihood of
         staying for the         May 2005 a              Current
          next 5 years
         Very likely                  38%                     43%
         Likely                       25%                     22%
         Unlikely                     12%                     13%
         Very unlikely                10%                     7%
         Don’t know                   14%                     15%

        Source: OIG interviews of FBI intelligence analysts

       Note (a): Does not add to 100 due to rounding.

       While the FBI agreed with our prior recommendation to establish
formal retention or succession plans with measurable goals, it has not
yet acted on this recommendation. An FBI intelligence official told us
the Directorate of Intelligence is actively managing the retention of
intelligence analysts by monitoring the attrition rate and surveying the
analysts to understand their career needs. Also, the FBI has
implemented several initiatives to enhance retention, including student
loan repayments, bonuses, and the creation of an Intelligence Officer
Certification program. Further, the FBI can now offer greater
promotion potential to analysts based on a 2005 exemption from
statutes limiting the grade structure of intelligence analysts.

Conclusion

       The FBI has made progress in improving the hiring, training,
utilization, and retention of intelligence analysts since our last review,
although in some areas the progress has been slow and uneven.

      We found that job satisfaction of analysts remains strong. Most
generally believe they are making important contributions to the FBI’s
mission. The FBI has also improved the utilization of its analysts, who
for the most part no longer are required to perform non-analytical
administrative tasks. The FBI’s overall attrition rate is low, and the
majority of analysts, as in our last report, indicate that they are likely
to stay with the FBI for the next 5 years.

      However, we found areas still in need of additional progress.
More than 18 months after our original report, the FBI still has not
developed (1) threat and risk-based criteria to determine the number


                                      -x-
of analysts needed to meet its mission and to allocate all analysts in
Headquarters as well as the field offices to where they are most
needed, (2) hiring goals based on the projected need for additional
analysts, and (3) succession and retention plans and strategies with
measurable goals. Moreover, despite the FBI’s ability to hire 375 new
intelligence analysts in FY 2006, its shortfall of 400 analysts
demonstrates the continuing difficulty facing the FBI in attracting
qualified analysts. The lengthening time required to bring analysts
aboard – nearly a 3-month increase since FY 2004 – is also
troublesome, because it can result in the FBI’s losing qualified
candidates.

       The training program for analysts, which has continued to
evolve, needs further refinement. We agree with those analysts and
intelligence managers who believe the training program needs a
greater emphasis on the specific skills analysts require in their FBI
positions. We also believe that the professional divide between
analysts and special agents remains a problem, and that the barriers
to acceptance and cooperation between the two groups must be
addressed if the FBI is to most efficiently and effectively meet its
mission, including its highest priority of preventing terrorist acts.
Additional training, leadership, and joint efforts are needed to
overcome this divide.

Recommendations

       In addition to continuing to monitor the 10 open
recommendations from our prior report, based on our current audit we
are making 3 additional recommendations to aid the FBI in continuing
efforts to improve its hiring, training, retention, and use of intelligence
analysts. The three new recommendations are that the FBI:
(1) evaluate the hiring and background investigation process to
identify ways to accelerate the accession of new intelligence analysts,
(2) involve intelligence managers and experienced analysts in
curriculum development efforts, and (3) make student and supervisor
evaluations of analyst training mandatory, and use the results to
identify any needed improvements in the curriculum.

       Of the 10 open recommendations, we believe the FBI needs to
pay special attention to improving its human capital planning for
intelligence analysts, in part by establishing hiring goals based on the
forecasted need for intelligence analysts; projected attrition in the
analyst corps; and the FBI’s ability to hire, train, and utilize
intelligence analysts. In addition, we recommend that the FBI


                                   - xi -
continue to develop and implement a threat- or risk-based
methodology for determining the number of intelligence analysts the
FBI requires.




                                - xii -
                                  Table of Contents

BACKGROUND ............................................................................ 1
    Roles of FBI Intelligence Analysts.......................................... 1
    The FBI’s Intelligence Organization........................................ 2
    The FBI’s Human Resources Management .............................. 3
    Training............................................................................. 5
    Prior Reports on FBI Intelligence Analysts .............................. 7

OIG FINDINGS AND RECOMMENDATIONS .................................... 12
     Hiring, Training, Utilizing, and Retaining
           Intelligence Analysts ................................................... 12
     Hiring and Allocation ......................................................... 13
     Training........................................................................... 20
     Utilization ........................................................................ 23
     Retention......................................................................... 30
     Conclusion ....................................................................... 34
     Recommendations ............................................................ 35

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 36

STATEMENT ON INTERNAL CONTROLS ......................................... 37

APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 38

APPENDIX 2: DIRECTORATE OF INTELLIGENCE
     MISSION STATEMENT, STRATEGIC GOALS, AND
     INTELLIGENCE PROCESS ................................................... 40

APPENDIX 3: DIRECTORATE OF INTELLIGENCE
     ORGANIZATIONAL CHART .................................................. 43

APPENDIX 4: NATIONAL SECURITY BRANCH MISSION, VISION,
     AND ORGANIZATION......................................................... 44

APPENDIX 5: MEMBERS OF THE UNITED STATES
     INTELLIGENCE COMMUNITY ............................................... 46

APPENDIX 6: ACRONYMS .......................................................... 47

APPENDIX 7: STRUCTURED INTERVIEW QUESTIONS AND
     SUMMARY RESPONSES ...................................................... 48

APPENDIX 8: OPEN RECOMMENDATIONS FROM PRIOR REPORT ...... 58
APPENDIX 9: THE FBI’S RESPONSE TO THE DRAFT REPORT ........... 60

APPENDIX 10: OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS
     NECESSARY TO CLOSE REPORT .......................................... 64
                                 BACKGROUND

       In May 2005, the Office of the Inspector General (OIG) issued an
audit report that examined the hiring, allocation, training, utilization,
and retention of intelligence analysts.5 In this follow-up review, we
examined the FBI’s progress in implementing the OIG’s
recommendations from the May 2005 report, and we also examined
the FBI’s continuing efforts to improve its hiring, training, utilization,
and retention of intelligence analysts. We undertook these audits
because the FBI’s intelligence analyst program is a critical component
of the FBI’s efforts to transform itself into an agency with a strong
intelligence capacity to help meet the FBI’s post-September 11 priority
of preventing future terrorist attacks on the United States.

       In performing this follow-up audit, we reviewed documents
related to the budgeting, hiring, training, utilization, and retention of
intelligence analysts. We also interviewed 60 intelligence analysts and
16 intelligence analyst supervisors in FBI Headquarters and in 4 field
offices to gauge any changes since our survey of all FBI intelligence
analysts in our prior audit. In addition, we interviewed FBI officials
from the Directorate of Intelligence and the Administrative Services,
Training and Development, and Finance Divisions.

Roles of FBI Intelligence Analysts

       The FBI’s Intelligence Analysts generally perform three roles:
(1) all-source analysts, (2) operations specialists, and (3) reports
officers. All-source analysts analyze threat information from multiple
sources and place that information into context for use by operations
specialists. Operations specialists assess the threat information in the
context of ongoing investigations and intelligence requirements to
evaluate the potential effect on national security. Reports officers act
as information brokers by linking the information developed by the all-
source analysts and operations specialists to address broader national
security implications and intelligence requirements. Intelligence
analysts perform their work at FBI Headquarters and in the FBI’s 56




       5
          Department of Justice, Office of the Inspector General, The Federal Bureau
of Investigation’s Efforts to Hire, Train, and Retain Intelligence Analysts, Audit
Report Number 05-20, May 2005.



                                       -1-
field offices. Analysts are supervised by either supervisory analysts or
by supervisory special agents.6

       The overall work products of FBI intelligence analysts within the
three roles include the collection and evaluation of available
information and the preparation of briefings, reports, and
communications for FBI personnel and other intelligence community
and law enforcement entities. The FBI has three primary intelligence
products: intelligence assessments, Intelligence Information Reports
(IIR), and intelligence bulletins. Intelligence assessments may be
either strategic or tactical. Strategic assessments support FBI-wide
programs, plans, and strategies or provide information to policy-
makers. Tactical assessments support FBI cases or operations, or
cover specific threats. IIRs contain single-source intelligence that the
FBI has not deeply evaluated. Intelligence bulletins are unclassified
descriptions of significant developments or trends that are shared
broadly within the law enforcement community.

The FBI’s Intelligence Organization

      In January 2003, the Director of the FBI authorized the position
of Executive Assistant Director (EAD) for Intelligence, and established
an Office of Intelligence to manage the FBI’s intelligence program.
The EAD for Intelligence was created to manage a single intelligence
program across the FBI's four operational divisions – Counterterrorism,
Counterintelligence, Criminal, and Cyber. Previously, each division
controlled and managed its own intelligence program. By creating the
Office of Intelligence, the FBI elevated the status of its intelligence
operations from a supporting role for investigations to full program
status.

      In September 2005, the FBI established a National Security
Branch (NSB) under an EAD to oversee the national security
operations of the Counterterrorism Division, Counterintelligence
Division, a new Directorate of Intelligence replacing the Office of




       6
          When we use the term “analyst” in this report, we are referring to
intelligence analysts. The FBI also has other types of analysts such as financial
analysts.



                                        -2-
Intelligence, and a new Weapons of Mass Destruction Directorate.7
The NSB is also responsible for the continued development of a
specialized national security workforce, and the EAD is the lead FBI
official responsible for coordination and liaison with the Director of
National Intelligence and the intelligence community.8

       In FY 2006, the Assistant Director, Directorate of Intelligence,
initiated an assessment to clarify the Directorate’s mission and the
roles of intelligence analysts and other staff. The Acting Deputy
Assistant Director told the OIG that the assessment made it clear the
field was frustrated about receiving conflicting guidance on intelligence
matters from Headquarters entities and that the Directorate needed to
ensure that policy, guidance, and processes were consistently
developed, understood, and applied across all elements of the
intelligence program.

The FBI’s Human Resources Management

       Since the September 11, 2001, terrorist attacks, the FBI has
taken steps to improve its human capital planning in general and its
intelligence program in particular. In September 2003, the FBI issued
the Human Talent for Intelligence Production Concept of Operations
Plan (CONOPS). This 2003 CONOPS outlines the strategies that the
FBI is planning to implement in the areas of recruiting and hiring, the
selection process, workforce development, and training and education
for intelligence analysts. It also includes a proposal for integrating
intelligence training into the new special agent curriculum. The plan
outlines the goal for the FBI’s intelligence analyst cadre to foster a
well-educated, highly trained, appropriately sized, and effective
analytical work force. In 2004, the FBI issued the Threat Forecasting
and Operational Requirements CONOPS. This plan includes a Human
Talent Requirements Forecast to assess the characteristics of the
human talent required to support the FBI intelligence program into the
future. However, both of these CONOPs and the supporting plans
within those CONOPs have not been fully implemented.



       7
          Details of the mission and organization of the Directorate of Intelligence are
displayed in Appendix 2 and 3. Further details of the mission and organization of the
NSB are contained in Appendix 4, and a list of the intelligence community members
is contained in Appendix 5.
       8
       The Director of National Intelligence is the head of the U.S. Intelligence
Community and the principal advisor to the President, National Security Council, and
Homeland Security Council on intelligence matters.


                                         -3-
      In August 2004, the FBI developed a Human Capital Plan to
guide its efforts in recruitment and other areas of personnel
management. In October 2005, the FBI appointed a Chief Human
Resources Officer to oversee recruitment, performance management,
talent development, succession planning, compensation, benefits, and
awards for the FBI.

      According to the Office of Personnel Management’s (OPM)
Human Capital Assessment and Accountability Framework, an agency
should have an explicit workforce planning strategy that is linked to
the agency's strategic and program planning efforts. In addition, the
workforce planning strategy should identify the agency’s current and
future human capital needs, including the size of the workforce, its
deployment across the organization, and the competencies needed for
the agency to fulfill its mission. OPM states that, to demonstrate that
the size and allocation of the workforce is based on mission needs, an
agency needs to complete a number of planning steps, including the
following:

      •   Develop a systematic process for identifying the human
          capital required to meet organizational goals and to develop
          strategies to meet these requirements.

      •   Develop a strategic workforce planning model for managers to
          assess and analyze their workforce. This model should
          describe agency-specific processes for setting strategic
          direction, restructuring the workforce through work-flow
          analysis to meet future needs, developing and implementing
          action plans, and evaluating and revising the action plans as
          necessary.

       Once an organization identifies its workforce gaps, it needs to
develop a strategy to fill the gaps. The strategy should be tailored to
address gaps in the number, deployment, and alignment of human
capital. The correct number, deployment, and alignment of human
capital should allow an agency to sustain the contribution of its critical
skills and competencies. OPM suggests that each agency publish a
strategic workforce plan that includes mission-critical positions, current
needs, projected business growth, future needs by competency and
number, and a basic plan to close the gaps identified. Such a human
capital planning effort would require the FBI to assess the number and
location of intelligence analysts to meet the FBI mission, including its
highest priority of preventing future terrorist attacks.


                                  -4-
Funded Staffing Level

       Prior to FY 2005, the FBI was unable to determine the number of
intelligence analyst vacancies or the distribution of those vacancies
across FBI units because it had not established a funded staffing level
(FSL) for analysts. An FSL is the number of positions available in a
given year based on that year’s appropriation. However, in FY 2004
the FBI began establishing an FSL for analysts and has since
established FSLs annually for both FYs 2006 and 2007 for intelligence
analysts by division, field office, and other entities. The FSL is based
on the budgeted number of intelligence analyst positions. Also
beginning in FY 2005, the FBI tracked the number of intelligence
analysts on board compared to the FSL.

Training

      Prior to the September 11 terrorist attacks, the FBI did not offer
formal classroom training to intelligence analysts. At that time, the
FBI had fewer than 200 intelligence analysts and any formal training
analysts received was provided outside the FBI.

      After the September 11 attacks, the FBI Director assigned the
Training and Development Division to immediately coordinate,
develop, and implement a professional training program for the FBI’s
analysts. In October 2001, the FBI established the College of
Analytical Studies (CAS) at the FBI Academy in Quantico, Virginia, with
the following mission:

       •   conceptualize analytical training programs,

       •   identify analytical training resources, and

       •   administer the CAS with a focus on improving the
           FBI’s analytical capabilities to meet all the FBI’s
           present and future investigative responsibilities.

      The first course for analysts established at the CAS was a
5-week Basic Intelligence Analyst (BIA) training held in FY 2002.9 As a
result of students’ negative feedback and poor attendance, a new

       9
           The CAS also offers specialty courses in a variety of subjects, including
analytical methods, denial and deception, Lexis/Nexis, money laundering, and
statement analysis. The CAS collaborates with other intelligence community training
institutions so that FBI analysts can obtain additional specialized training.


                                       -5-
7-week introductory level course for intelligence analysts, called
Analytical Cadre Educational Strategy 1 (ACES-1), replaced the BIA in
September 2004.

       In 2004, the former Office of Intelligence also developed seven
core elements for FBI intelligence training, and the ACES-1 class is
based on these 7 elements: (1) FBI intelligence mandates and
authorities, (2) the intelligence cycle, (3) the United States
Intelligence Community, (4) intelligence reporting and dissemination,
(5) FBI intelligence requirements and the collection management
process, (6) the role of the intelligence analyst, and (7) validating
human sources. In addition to applying the generally accepted core
elements in developing the curriculum, the FBI contractor that
developed ACES-1 consulted with other federal agencies, companies
that provide training to intelligence analysts elsewhere, experienced
FBI intelligence analysts and academic institutions with intelligence
programs.

       In November 2004, the FBI added ACES 1.5 to the list of CAS
courses. ACES 1.5 is intended to train intelligence analysts who had
already been with the FBI prior to the establishment of the analyst
training curriculum. This training was created to reinforce the working
knowledge of the existing analysts. The ACES-1.5 curriculum included
Analytic Tools and Techniques, Classified Materials, an overview of the
Directorate of Intelligence, Criminal Discovery, Title III, Grand Jury
Information, Privacy Act and Classified Information Procedures Act,
Effective Writing of Intelligence Information Reports, the FBI Field
Office Intelligence Program, Requirements and Collections
Management, and an overview of the U.S. Intelligence Community.

       In FY 2006 the FBI reconfigured the two ACES courses into a 9-
week merged course and renamed it Cohort. Cohort will completely
replace the ACES courses when analysts who joined the FBI prior to
2005 complete ACES. The first 5 weeks of Cohort is designed for new
intelligence analysts, language analysts, and other intelligence
professionals who comprise the FBI’s Intelligence Career Service.
Immediately following the 5-week program, analysts receive an
additional 4 weeks of specialized intelligence training covering systems
and tools used by intelligence analysts.




                                 -6-
Prior Reports on FBI Intelligence Analysts

Office of the Inspector General (OIG)

       In May 2005, the OIG issued an audit report entitled The Federal
Bureau of Investigation’s Efforts to Hire, Train, and Retain Intelligence
Analysts (Audit Report 05-20), which examined the FBI’s efforts to
expand and improve its intelligence analyst corps. The OIG audit
concluded that the FBI had made progress in hiring well-qualified
intelligence analysts by streamlining its hiring process and budgeting
the number of positions available. However, the OIG audit also found:


      •   At the end of FY 2004, the FBI had hired less than 40 percent
          of its goal of 787 analysts.

      •   The FBI had not determined the total number of analysts
          needed to support its intelligence program.

      •   The FBI made slow progress toward developing a quality
          training curriculum for new analysts. The initial basic course
          was not well attended and received negative evaluations.

      •   Analysts responding to the OIG’s survey were generally
          satisfied with their work assignments, were intellectually
          challenged, and believed they made a significant contribution
          to the FBI’s mission. However, newer and more highly
          qualified analysts were more likely to respond negatively to
          these questions.

      •   The type of work performed by intelligence analysts varied by
          location, years of employment, and education. The OIG
          survey found that work requiring analytical skills accounted
          for about 50 percent of analysts’ time. Many analysts
          reported performing miscellaneous administrative or other
          non-analytical duties. Some analysts said that not all special
          agents, who often supervise analysts, understand the
          capabilities and functions of intelligence analysts.

      •   Between FYs 2002 and 2004, 291 intelligence analysts left
          their positions. About 57 percent left the FBI, including
          retirements, and the rest took other jobs within the FBI.



                                   -7-
          About 63 percent of the analysts responding to the OIG
          survey said they plan to stay with the FBI as intelligence
          analysts for at least 5 years. Three categories of analysts
          reported that they were less likely remain as FBI intelligence
          analysts: analysts located at FBI Headquarters, those hired
          since 2002, and analysts with advanced degrees.

      In its May 2005 report, the OIG made 15 recommendations to
help the FBI improve its efforts to hire, train, and retain intelligence
analysts. These include recommending that the FBI:


      •   Establish hiring goals for intelligence analysts based on:
          (1) the forecasted need for intelligence analysts;
          (2) projected attrition in the analyst corps; and (3) the FBI’s
          ability to hire, train, and utilize intelligence analysts.

      •   Develop and implement a threat-based or risk-based
          methodology for determining the number of intelligence
          analysts required and for allocating the positions.

      •   Integrate testing into the intelligence analysts curriculum and
          develop a more rigorous training evaluation system that
          includes the effectiveness and relevance of each instructional
          block; asks analysts what other topics need to be covered;
          obtains the views of analysts after returning to work when
          they can evaluate the effectiveness of training in improving
          their job skills; and obtains evaluations of training
          effectiveness from analysts’ supervisors.

      •   Assess the work done by intelligence analysts and determine
          what work is analytical in nature and what work is in general
          support of investigations that can more effectively be
          performed by other support or administrative personnel.

      •   Develop a strategic workforce plan for intelligence support
          personnel, and include in that plan a gap analysis of current
          investigative support personnel (by position) and the number
          of personnel (by position) the FBI needs to meet current and
          forecasted threats.




                                   -8-
      •    Develop retention and succession plans and strategies for its
           intelligence analysts, including measurable goals, and conduct
           exit interviews of intelligence analysts who leave the FBI or
           transfer to other positions within the FBI.

Government Accountability Office

        In June 2004, officials from the Government Accountability Office
(GAO) presented congressional testimony entitled, The FBI
Transformation: Human Capital Strategies May Assist the FBI in Its
Commitment to Address Its Top Priorities, GAO-04-817T. In the
testimony, the GAO stated that the FBI had made significant progress
in its transformation efforts. The GAO found that the FBI’s
organizational changes to enhance its intelligence capability, including
its realignment of staff resources to the counterterrorism and
counterintelligence priority areas, among other things, was
encouraging

       The GAO noted that the FBI had faced difficulties retaining staff
and competing with other government agencies and the private sector
for staff with intelligence knowledge, skills, and abilities. These
difficulties may have resulted in part from the fact that the FBI’s
career ladder for intelligence analysts at the time was truncated
compared with similar career ladders at other federal agencies. For
example, the Central Intelligence Agency and National Security Agency
maintained a career ladder for their intelligence staff that included
both senior executive (managerial) and senior level (non-managerial)
positions. While the FBI was moving toward establishing a GS-15
career path for intelligence staff at the time of the hearing, the GAO
concluded that this would still not create a level playing field with the
rest of the intelligence community given that other agencies
maintained higher level positions.10 The GAO went on to say that
should a decision be made to institute senior executive and senior
level positions, the FBI would still need to develop and implement a
carefully crafted plan that included specific details on how such an
intelligence career service would relate into its strategic plan and
strategic human capital plan, the expectations and qualifications for
positions, and how performance would be measured.



      10
           Since this testimony, the FBI has been exempted from Title 5, which
prevented it from placing analysts at the GS-15 and Senior Executive Service pay
levels. Title 5 contains the personnel statutes that govern most of the federal
workforce, including position classification and grading.


                                       -9-
9/11 Commission

       The final report of the National Commission on Terrorist Attacks
Upon the United States (9/11 Commission) made several observations
about the role of intelligence in the FBI as well as its intelligence
capabilities. One of the report’s primary observations concerned the
FBI’s strategic plan to reshape the way the FBI addressed terrorism
cases, which shifted the FBI’s priorities and mandated a stronger
intelligence collection effort. The plan also called for a new
information technology system to aid in the collection, analysis, and
dissemination of intelligence and other information.

      The FBI’s strategic plan was based, in part, on the FBI creating a
professional analytical corps. The 9/11 Commission found that if the
FBI had fully implemented the 1998 strategic plan, it would have made
“a major step toward addressing terrorism systematically, rather than
as individual unrelated cases.” However, the Commission found that
the plan was not successfully implemented and attributed that failure
to several factors, including the following. 11

      •    The FBI’s practice of hiring analysts from within the agency
           rather than recruiting individuals with the relevant
           educational background and expertise contributed to a lack of
           strategic analysis. In the 9/11 Commission’s field visits, its
           staff “encountered several situations in which poorly qualified
           administrative personnel were promoted to analyst positions,
           in part as a reward for performance in other positions.”

      •    When the FBI hired or promoted people with appropriate
           analytical skills and experience, the lack of a long-term career
           path and a professional training program caused many
           capable individuals to leave the FBI or move internally to
           other positions.

      •    When the FBI hired qualified analysts, FBI managers often did
           not use them effectively. This was especially true in the field
           offices. Some field analysts interviewed by the
           9/11 Commission said they were viewed as “über-
           secretaries,” expected to perform any duty that was deemed
           non-investigative, including data entry and answering phones,

      11
         In commenting on a draft of our May 2005 report, the FBI stated that the
Department of Justice rejected its budget requests for the additional personnel
necessary to implement the plan.



                                      - 10 -
because FBI Headquarters did not have sufficient staff
support. As a result, analysts were often asked to perform
duties that were not analytic in nature.




                       - 11 -
            OIG FINDINGS AND RECOMMENDATIONS

Hiring, Training, Utilizing, and Retaining Intelligence Analysts

     This follow-up review found that the FBI has made
     progress in improving the hiring, training, utilization, and
     retention of intelligence analysts, although in some areas
     the progress has been slow and uneven. For example, the
     FBI has improved its utilization of intelligence analysts,
     and most analysts we interviewed expressed positive job
     satisfaction. The FBI has also kept the attrition of analysts
     at a reasonable level and has begun conducting exit
     surveys that should provide data to help the FBI further
     improve the hiring, training, utilization, and retention of its
     intelligence analysts. In addition, the FBI continues to
     augment the size of its intelligence analyst workforce by
     hiring qualified candidates.

     However, the FBI ended FY 2006 with 2,174 intelligence
     analysts, a shortfall of 400 based on its hiring goal.
     Further, the FBI has not fully implemented
     recommendations from our prior report to (1) base the
     hiring and allocation of analysts on threat and risk and
     (2) determine the number of intelligence analysts needed
     to achieve the FBI’s mission. The hiring process has also
     been lengthening, with the process taking an average of
     217 days in FY 2006 compared to 132 days in FY 2004.
     The FBI continues to struggle with developing a
     satisfactory training program for new analysts, with a lack
     of hands-on training in the skills needed for analysts to
     perform their work assignments. Also, we found a
     professional divide between special agents and analysts in
     which some special agents seem to misunderstand or
     undervalue the role of intelligence analysts or fail to treat
     them as professional equals. Lastly, although most
     analysts said they plan to stay with the FBI as intelligence
     analysts for at least 5 years, enough analysts plan to
     leave, especially at the Headquarters level, to warrant
     increased attention to developing retention strategies.




                                 - 12 -
Hiring and Allocation

       In our May 2005 report, we recommended that the FBI use
threat- and risk-based criteria to determine the number of analysts
needed to meet is mission and to allocate analysts to where they are
most needed. Further, we recommended that the FBI establish hiring
goals for intelligence analysts based on: (1) the forecasted need for
intelligence analysts; (2) projected attrition in the analyst corps; and
(3) the FBI’s ability to hire, train, and utilize intelligence analysts.

       As discussed in our prior report, instead of establishing formal
hiring goals based on threat and risk factors, the FBI uses the number
of intelligence analyst positions in its budget appropriation as a hiring
goal, which is based on the FSL. In other words, the budget drives the
number of hires. A unit chief told the OIG that he believes the
numbers of additional appropriated positions are valid hiring goals
because the budget process is how government organizations express
their resource needs. While we agree with this general proposition, we
also believe the budget request should be based on a sound
assessment of the number of analysts needed to meet the FBI’s
mission using threat- and risk-based criteria.

Hiring Progress

       Although the FBI missed its FY 2006 hiring goal by 400
intelligence analysts, it decreased its vacancy rate since our prior
report. Between September 2004 and September 30, 2006, the FBI
hired 54 percent more analysts, increasing on-board strength to 2,174
from 1,413. The shortfall of 400 analysts, resulting in a 16-percent
vacancy rate, represents a significant improvement over the
32-percent vacancy rate in FY 2004. The following table shows the
number of hires since FY 2001.




                                 - 13 -
       Number of Intelligence Analysts Hired and On-board
                from FY 2001 through FY 2007a

        Fiscal Year                      Hiredb                      On-board
                                                                (as of end of FY)
             2001                           46                         1,023
             2002                           98                         1,012
             2003                          265                         1,180
             2004                          349                         1,413
             2005                          678                         1,998
             2006                          375                         2,174
             2007                    250 projected

Source: OIG based on FBI data

Notes:
   (a) The FBI has classified the hiring goal for FY 2005, but the goal for 2006 is
       unclassified. The FBI did not have an FSL prior to FY 2005.
   (b) The number of intelligence analysts includes new hires and transfers from
       other FBI positions.

       The FBI’s strides in filling intelligence analyst positions was aided
by several initiatives, beginning with a hiring “blitz” in early 2005.
According to an FBI official, this recruitment initiative attracted over
11,000 applicants, of whom over 300 were interviewed. In addition, in
March 2005, the FBI replaced its decentralized hiring process with a
nationwide recruitment strategy that allows it to consider and process
a greater number of candidates to meet the aggressive hiring goals
established since 2004. In addition, the nationwide strategy enabled
all candidates to apply to the same job posting rather than to separate
postings for each location’s vacancies.

       A more recent hiring initiative in July 2006 sought intelligence
analyst candidates for FBI Headquarters positions. According to an
FBI official, Headquarters has more openings for analysts than field
offices. Headquarters divisions identified the specific skill sets desired
for new hires, and the hiring initiative sought experienced applicants to
fill General Schedule (GS) 12 through 14 positions. Headquarters
divisions then reviewed the applications received and decided which
applicants to interview. The FBI received about 4,100 applications for



                                        - 14 -
the Headquarters positions, interviewed about 350 applicants, and
selected 100 candidates.

Lengthening Processing Time

      The average time required for the FBI to hire intelligence
analysts from the closure of the job announcement to entry on duty
(EOD) has increased from about 19 weeks in FY 2004 to about 31
weeks in FY 2006. This increased hiring time, according to several FBI
managers, might cause some candidates to lose patience and accept
employment elsewhere.

      Once a candidate receives a tentative offer of employment, an
extensive background investigation process ensues and this portion of
the hiring process accounts for most of the processing time. According
to FBI officials, the primary reason for the delay is the number of
candidates that need background investigations at any given time.

      Due to the nature of the work performed by the FBI, all
employees must qualify for a top-secret security clearance before they
can begin service. After applicants for an intelligence analyst position
receive a conditional offer of employment, they are placed in
“background” status. While in a background status, applicants are
investigated to determine whether they are suitable for FBI
employment.12 The FBI’s investigation includes a drug test, a
polygraph, and an extensive check into the applicant’s credit history,
drug use, personality, and any legal violations.

      From FY 2004 to FY 2006, the average time it took from the
closure of the job announcement to the EOD date for intelligence
analysts increased from approximately 132 to 217 days, or 85 days, as
shown in the table below. Although we requested information on the
reasons for this increase in hiring time, the Administrative Services
Division unit chief did not provide an explanation.




       12
           At the time of this audit, the FBI conducted its own background
investigations. However, The Intelligence Reform and Terrorism Prevention Act of
2004 addressed the need to streamline the process by which government agencies
grant security clearances. While the Act directs the President to select a single entity
to conduct all security clearance investigations, the FBI has not yet changed its
policy of conducting its own background investigations.



                                        - 15 -
            Average Number of Days from Closure of Job
              Announcement to Enter-On-Duty Date

                  Time Period               Average Number
                                                   of Days
                        FY 2002                      133
                        FY 2003                      167
                        FY 2004                      132
                        FY 2005                      160
                        FY 2006a                     217

             Source: OIG based on FBI data

             Note (a): FY 2006 data covers through August 29, 2006.

Quality of New Intelligence Analysts

       During our fieldwork for the current audit, we interviewed 60
intelligence analysts and their supervisors regarding the FBI’s hiring
practices. Many supervisory intelligence analysts told us that the
quality of newly hired intelligence analysts has improved, and that
they are qualified in general, think creatively, and are more educated
than in the past. For example, we found that at least 34 percent of
analysts hired in the last 2 years hold advanced degrees. However,
because the FBI told us it did not collect complete data on advanced
degrees for this period, we could not compare it to the 56 percent of
analysts with advanced degrees hired from FYs 2002 to 2004.13

Allocation of Analysts

       We found that the FBI does not use threat or risk assessments to
allocate all of the hired analysts throughout the FBI. Once hired,
analysts are assigned to various Headquarters divisions or offices or to
field offices. The FBI’s methodology for allocating these new analysts
varies. In Headquarters, the allocation of new intelligence analysts is
based on filling any vacancies stemming from the historical budget-
driven allocation of positions, modified by managers’ expressed needs
and requests for additional positions. The FBI fills field office
vacancies similarly. However, additional positions allowed by the

      13
          Advanced degrees consist of a professional 6-year degree, master’s,
doctorate, or juris doctorate.


                                      - 16 -
budget – known as enhancements – are now allocated based on a
threat and risk assessment. In its FY 2006 budget, the FBI received
an enhancement of 260 intelligence analyst positions. The FBI first
filled 51 requested positions at FBI Headquarters and overseas legal
attachés. The FBI then allocated the remaining 209 positions to field
offices using threat and risk criteria.14

     We believe that using threat and risk criteria for the field office
enhancements is a step in the right direction. However, the
recommendation in our prior report was more comprehensive and
recommended developing and implementing a threat- or risk-based
methodology for allocating intelligence analyst positions across both
FBI Headquarters divisions and field offices.

       Furthermore, in response to our prior recommendation to
develop and implement a threat- and risk-based methodology for
determining the number of analysts required, the FBI stated that
forecasting the need for intelligence analysts is part of a long-term
goal that it is working toward. However, FBI officials said that because
of the complexity of such a model and the need for baseline data over
a span of several years, development of such a model is likely 3 to 5
years away from completion. As stated in our prior report, we do not
believe that the methodology for determining the number of
intelligence analysts needs to involve complex formulas. However, the
methodology does need to be supported by data and be consistent
with the FBI’s strategic mission.

       The overall allocation of the FBI’s intelligence analysts between
Headquarters and the field offices has not changed significantly since
our previous audit report. About half of all analysts are assigned to
field offices and half to Headquarters units. The distribution of
analysts among the field offices has changed somewhat, as has the
total number of analysts on board. For example, each of the FBI’s five
largest field offices – Los Angeles, Newark, New York, San Francisco,
and Washington, DC – had 40 or more intelligence analysts during the
period of this review compared to 25 in June 2004. The table below
compares the overall number and allocation of analysts in FY 2004 to
FY 2006.




      14
           The specific allocation is classified.


                                           - 17 -
               Allocation of FBI Intelligence Analysts
                     April 2006 and June 2004

                                 Number of            Percent of Total
                                Intelligence            Intelligence
                                  Analysts                Analysts
       Organizational
                              2006         2004        2006       2004
           Unit
         Field offices        1,043            612      49          49
       HQ operational
                               899             523      42          42
         divisions
          Other FBI
                               177             112       8              9
           entities
             Total            2,119       1,247         99a        100

      Source: OIG based on FBI data

      Note (a): The total does not equal 100 percent due to rounding.

       In 2005, we reported that the former EAD for Intelligence had
expressed concern that there were too few seasoned intelligence
analysts working in FBI field offices. The current Acting Deputy
Assistant Director of the Directorate of Intelligence recently stated that
FBI Headquarters has as many intelligence analysts as the field offices
because it provides national case management, while the field is
responsible for local intelligence efforts. He stated that Headquarters
puts together the individual pieces of intelligence from the field and is
the office of origin for many major cases. Another FBI Headquarters
official stated that intelligence analysts are used as case analysts in
field offices, but not a lot of intelligence is generated by cases.
According to this official, since the majority of strategic intelligence
analysis (analysis outside of cases) is performed at FBI Headquarters,
the FBI needs a significant number of intelligence analysts at its
Headquarters to conduct strategic intelligence analysis.

       Consistent with the recommendation in our prior report, we
believe the allocation of intelligence analysts needs to be part of an
overall human capital planning process in which the number and
location of analysts are formally assessed based on factors such as
threat, risk, and workload. Further, because there has been no such
assessment, the FBI cannot be certain whether there are too few or


                                      - 18 -
too many analysts in FBI field offices, or whether the distribution of
analysts among the field offices is appropriate.

       In terms of the distribution of analysts by pay grade, we noted in
our prior report that analysts in field offices tended to be lower-
graded. This follow-up review found a greater balance between the
field offices and Headquarters divisions with respect to pay grades of
intelligence analysts. The following table shows the change in the
distribution of GS grades, by location, from FY 2004 to FY 2006.

            Change in GS Level of Intelligence Analysts by
               Organizational Unit, FYs 2004 and 2006
                (in percentages, FY 2004 - FY 2006)

Organizational   GS-     GS-    GS-     GS-   GS-    GS-    GS-   Executive
    Unit          7      9      11      12    13     14     15    Service
 Field Offices    2-4   9-14     56-    24-   7-13   1-10    0       0-0
                                 27-    33
HQ Operational    4-7   12-26   14-18   13-   19-    33-    4-3      1-0
  Divisions                             12    15     20
  Other FBI      2-10   6-16    49-21   12-   13-    16-    2-5      1-1
   Entities                             22    13     12
    Total         3-5   10-19   38-23   19-   12-    16-    2-2      0-0
                                        23    14     14


Source: OIG based on FBI data

       The percentage of analysts in the field at the GS-14 supervisory
intelligence analysts level increased from 1 percent in FY 2004 to 10
percent in April 2006. In addition, since May 2006 20 GS-14s have
been placed in field offices. Therefore, more field office intelligence
analysts are being supervised by supervisory analysts instead of by
special agents. An FBI official stated that each field office decides if
intelligence analysts should be supervised by a more senior analyst or
by a special agent, but that more field offices are moving toward hiring
additional supervisory intelligence analysts. Analysts told us that they
prefer reporting to supervisory analysts who understand their role and
capabilities and who can provide more appropriate guidance.

      The following chart depicts the change in the field office grade
structure between FYs 2004 and 2006.




                                   - 19 -
         GS Level of Field Office Intelligence Analysts
                        for 2004 & 2006

  60%
  50%
  40%
  30%
  20%
  10%
   0%
           GS-7   GS-9    GS-11 GS-12 GS-13 GS-14 GS-15      SES
                                 GS Level

                                 2004     2006


Source: OIG based on FBI data

Training

       In FY 2006 the FBI established a 9-week course covering the two
ACES courses and renamed it Cohort. Cohort will completely replace
the ACES courses when analysts who joined the FBI prior to 2005
complete ACES. The first 5 weeks of Cohort is designed for new
intelligence analysts, language analysts, and other intelligence
professionals who comprise the FBI’s Intelligence Career Service.
Immediately following the 5-week program, intelligence analysts
receive an additional 4 weeks of specialized intelligence training
covering various systems and tools that analysts can use. Included in
this second phase of Cohort is a 4-hour joint exercise involving new
analysts and new special agents. At the time of the current audit,
however, this exercise was the only formal interaction between special
agents and intelligence analysts during training. According to an FBI
training official, as of August 2006, 2,010 analysts had attended basic
training: 392 intelligence analysts attended Cohort, 885 attended the
ACES-1 class, and 733 attended the ACES 1.5 class. Forty-one
analysts were still required to attend ACES-1 (some of whom were
registered for a September 2006 class), and 127 analysts were still
required to attend ACES 1.5 (some of whom were registered for
August or September 2006 classes). However, as discussed below,
the FBI has not yet established an analyst training program that meets
the expressed needs of analysts, their supervisors, or Directorate on
Intelligence executives.


                                 - 20 -
Evaluating Analyst Training

       During the current audit, 55 percent of the 60 intelligence
analysts we interviewed in FBI field offices and Headquarters told us
that the analyst training (ACES-1, ACES 1.5, and Cohort) they
attended did not meet, or completely failed to meet, their expectations
for helping them do their job. Twenty-five percent of the analysts
noted that the training lacks the hands-on practical exercises required
to help them learn how to perform their daily tasks, such as writing
intelligence assessments or intelligence information reports.
Underscoring this point, approximately half of the 16 supervisory
analysts we interviewed stated that intelligence analysts need better
training in writing intelligence products.


                      Meeting Training Expectations

        45%
        40%
        35%
        30%
        25%
        20%
        15%
        10%
         5%
         0%
                Greatly    Exceeded      Met      Did Not Meet Completely
               Exceeded Expectations Expectations Expectations Failed to Meet
              Expectations                                     Expectations

                                       2004      2006


      Source: OIG interviews

       In addition, a senior FBI training official said that the new Cohort
class is nearly identical to the ACES course, but instead there should
be more specialized training, such as in counterterrorism or criminal
investigations. She stated that the consequence of the current
curriculum is an analytical work force that is not well-prepared and
that has to find its own way in learning the job. Further, both the
Assistant Director and the Acting Deputy Assistant Director for the
Directorate of Intelligence acknowledged that training for the FBI’s
intelligence analysts is inadequate. The Assistant Director told us he
wants to analyze the skills that analysts require and determine what
additional training is needed to develop those skills. However, he said


                                        - 21 -
he does not want to develop a new course if training is available
through other agencies and if FBI employees can attend. Also, he
believes 9 consecutive weeks is too long a time to train new analysts,
because it disrupts the work and personal lives of those entering duty.
The Acting Deputy Assistant Director also stated that intelligence
analyst training is lacking. In recognition of the continuing need to
improve analyst training, the FBI held meetings in April and August
2006 to better define job roles and shape the training program to
better prepare analysts to perform within those roles.

       In commenting on a draft of this report, the FBI said it has used
subject matter experts and managers throughout the development of
all of the FBI’s intelligence analyst training programs. However, even
with such input to the curriculum, an FBI training section chief told us
that FBI Training and Development Division staff developed the analyst
training curricula with little influence from experienced intelligence
analysts and supervisors. Moreover, we analyzed the curriculum and
found little difference between the ACES courses and Cohort courses.
As stated above, FBI officials agreed there was no substantive
difference between the two courses. We therefore recommend more
extensive involvement of experienced analysts and supervisors in the
development of the curriculum for intelligence analysts.

      Moreover, in our previous report we recommended that the FBI
integrate testing into its training curriculum. We believe that testing
students would help instructors assess how well the class understands
the concepts presented.

      Although the FBI agreed with the recommendation, it has not yet
implemented a testing process. However, in its most recent response
to our recommendation, the FBI said it has developed testing
blueprints and conducted testing pilots with two Cohort classes.
Additionally, the FBI said it plans to: conduct a third testing pilot with
a Cohort class; work with the Administrative Services Division, the
Directorate of Intelligence, and the Office of the General Counsel to
develop a human resource policy for how test scores affect conditional
hire status; and implement a final testing program. Yet, the FBI did
not state a time frame for implementing a testing process, nor did it
provide an assessment of the pilot results.

      We also recommended in our prior report that the FBI ensure all
analyst training classes are full rather than leaving vacancies in the
classroom. We closed this recommendation based on documentation
from the FBI showing the last four sessions of ACES-1 in 2005 were


                                  - 22 -
full. We confirmed in our current audit that the FBI continues to keep
the classes occupied at an adequate level.

       We also recommended previously that the FBI develop a more
rigorous training evaluation system that includes the effectiveness and
relevance of each instructional block; asks analysts what other topics
need to be covered; obtains the views of analysts after returning to
work when they can evaluate the effectiveness of the training in
improving their job skills; and obtains evaluations of training
effectiveness from analysts’ supervisors. We closed this
recommendation based on documentation showing the FBI developed
a training evaluation system for ACES-1.

       However, during the current audit we found no evidence that the
FBI ensures that all students complete an evaluation or that the data
from evaluations is being used to improve the current curriculum.
Also, there is no follow-up evaluation by either the student or the
supervisor to help assess the usefulness of the training in the real
world once the student returns to the workplace. We are therefore
replacing the previous recommendation with a new recommendation
that the FBI make training evaluations mandatory and to use the
results to identify any needed improvements in the curriculum.

Utilization

       The 60 analysts we interviewed during the current audit
generally said they believed they are contributing significantly to the
FBI’s mission: 63 percent of these analysts rated their contribution as
“very high” or “high,” and 35 percent said their contribution to the
FBI’s mission is “average.” Only 2 percent of the intelligence analysts
interviewed rated their contributions as “low.” These results are
similar to the results of our more extensive survey discussed in the
2005 report, when 73 percent of analysts perceived their contribution
to the FBI as “very high” or “high,” and 23 percent rated their
contribution as “average.” The 2004 and 2006 results, while not
statistically comparable due to the more limited sample in 2006,
indicate continuing general satisfaction by the analysts of their
contribution to the FBI’s mission. The chart below shows the extent to
which analysts believe they are contributing to the FBI’s mission.




                                - 23 -
              Level of Contribution to the Mission of the FBI

        50%
        45%
        40%
        35%
        30%
        25%
        20%
        15%
        10%
         5%
         0%
               Very High    High     Average         Below    Low
                                                    Average

                                    2004     2006


      Source: OIG survey and interviews

Satisfaction with Work Assignments

       The vast majority of intelligence analysts we interviewed during
the current audit continue to express satisfaction with their work
assignments: 84 percent said they are satisfied, the same percentage
as our previous, more extensive survey. The supervisory intelligence
analysts we interviewed also said they were satisfied with the work
products that intelligence analysts produce. However, as discussed in
the Training section of this report, most of the analysts’ supervisors
believe there is room for improvement in the analysts’ written
products and that more specialized training in completing these
products would be beneficial. Again, although the data is not
statistically comparable, it indicates that the FBI’s intelligence analysts
continue to be generally satisfied with their work assignments.




                                    - 24 -
              Satisfaction with Types of Work Assignments

        50%
        45%
        40%
        35%
        30%
        25%
        20%
        15%
        10%
         5%
         0%
               Extremely    Very         Satisfied     Unsatisfied     Very
               Satisfied   Satisfied                                 Unsatisfied

                                        2004    2006


       Source: OIG

Intellectual Challenge

       Of the 60 analysts we interviewed, 82 percent said their work is
intellectually challenging. The result mirrors the results of our prior
survey, where 85 percent said they are challenged. The following
chart compares data from our 2004 survey and 2006 interviews on the
extent to which analysts find their work intellectually challenging.




                                       - 25 -
                   Intellectually Challenging Work as an FBI
                               Intelligence Analyst

            60%
            50%
            40%
            30%
            20%
            10%
             0%
                     Very       Challenging    Unchallenging       Very
                  challenging                                  unchallenging

                                        2004    2006


            Source: OIG

Expectations

       In this follow-up review, we found that the majority of
intelligence analysts had expectations for the job that were similar to
the work they are performing. The results were similar to the 2004
survey.15




       15
          In instances where the expectations did not match, a few of the reasons
given were poor placement, less analytical work than expected, and vague job
descriptions in the application.


                                      - 26 -
                             Expectations Match Work

            45%
            40%
            35%
            30%
            25%
            20%
            15%
            10%
             5%
             0%
                    Very       Closely    Somewhat       Not Closely   Not at all
                   Closely                 Closely                     Closely

                                          2004    2006

            Source: OIG

Extent of Non-Analytical Work

       In our prior audit, we found that, on average, analysts spent 31
percent of their time on administrative work, and they estimated that
one-third of this administrative work was not related to their job. For
example, analysts said they were performing a significant amount of
non-analytical duties such as escort, trash, watch, or command post
duty. However, according to intelligence analysts, supervisory
analysts, and other FBI officials we interviewed during the current
audit, the utilization of analysts for analytical work has improved.
Analysts told us that they do not now typically perform the types of
non-analytical duties cited in our prior report. Over 90 percent of the
analysts we interviewed told us they spend from no time to under
25 percent of their time on administrative duties not related to their
role.16

      Still, several analysts reported that in some cases they perform
administrative functions. We believe that many of the administrative
functions these analysts reported would be better suited for
investigative support or intelligence assistance personnel. For
example, intelligence analysts in one field office were responsible for
uploading data into an intelligence-related database. This routine but

       16
          Our interviews asked for estimates in ranges, not for the specific time
spent on administrative duties unrelated to analysts’ job roles. The lowest range
was zero to 24 percent.


                                         - 27 -
time-consuming function does not require any analysis and could be
performed by an intelligence assistant or other support personnel.
While most employees in any organization perform some
administrative tasks, we believe – as we recommended in our prior
report – that the FBI should systematically examine the duties
performed by intelligence analysts to determine whether some tasks
might be more efficiently performed by other categories of employees.
However, we also noted in our current audit that the FBI is attempting
to address this concern by assigning some of the more administrative
duties to intelligence assistants, such as compiling and disseminating
routine reports, maintaining intelligence databases, and reviewing and
analyzing intelligence documents for format and required information.

Professional Differences Between Analysts and Special Agents

      Eighty percent of the analysts – and every analyst supervisor –
we interviewed stated that special agents misunderstand the functions
and capabilities of intelligence analysts at least some of the time.
They also told us – and we confirmed – there has been no special
agent training on the role and capabilities of intelligence analysts,
other than the relatively brief joint exercise involving new analysts and
new special agents during Cohort training.

      Yet, although our interviews of 60 analysts cannot statistically be
compared with our more comprehensive survey reported in 2005,
there appears to be some improvement in the analysts belief that
agents understand the role of analysts. Eighteen percent of analysts
we interviewed said that special agents rarely or never understand the
functions and capabilities of intelligence analysts, compared to 27
percent in our prior report.




                                 - 28 -
               Special Agents Understand Functions and Capabilities
                              of Intelligence Analysts

        60%
        50%
        40%
        30%
        20%
        10%
         0%
              Very Often   Often   Sometimes   Rarely   Never         N/A

                                        2004   2006


      Source: OIG

       In our interviews, we heard that prior to September 11, 2001,
special agents viewed intelligence analysts as secretaries or
administrative support personnel. We believe this perception was
partly the result of special agents not receiving specific training on the
functions and capabilities of intelligence analysts. In the past, when
intelligence analysts were part of the Intelligence Assistant job series
(series 134), it became routine to view intelligence analysts as only
able to perform administrative duties of a non-analytical nature.
However, we found that as a result of the changes in the FBI after the
September 11 terrorist attacks, the FBI has made significant
improvements in establishing the current cadre of intelligence
analysts, with a professional job series (series 132).

      Many intelligence analysts believe that some special agents have
not changed their perception and continue to view intelligence analysts
as administrative support staff rather than equal professional partners.
This perception may lead to underutilization of intelligence analysts
and to a professional divide. Further, most analysts and supervisors
we interviewed told us there is a noticeable segregation of special
agents and analysts, particularly in FBI field offices.

      As in the May 2005 report, our current audit found that the lack
of respect that analysts feel boils down to one concept: analysts are
labeled “support” personnel rather than intelligence analyst
professionals on par with the FBI’s special agents. Our 2005 report
found that there was a wide professional divide between support staff
and agents. During interviews for this audit, we asked analysts to tell



                                        - 29 -
us whether the term “support staff” carried a negative feeling when
applied to intelligence analysts. In response, 53 percent said “yes.”
This is similar to the 60 percent who answered “yes” in our May 2005
report.

       However, officials in the Intelligence Career Management Section
said they are optimistic that as the intelligence analyst program
becomes more developed and embedded in the structure of the FBI,
intelligence analysts will be better utilized to perform intelligence
analysis and reporting. Intelligence analysts told us that the newer
special agents tend to be more willing to assign tasks to them that are
analytical in nature, once they understood that an intelligence analyst
can and should be utilized in this capacity. However, the analysts told
us that some special agents – both supervisory and non-supervisory –
continue to view intelligence analysts as just a spin-off of the
administrative series and therefore are not open to allowing them to
perform intelligence-related work. With our limited sample of analysts
and supervisors it is difficult to assess the pervasiveness of this
professional divide in the FBI, but enough analysts told us that they
still perceive such a divide to make it a significant issue that the FBI
needs to address. Consequently, we believe the FBI needs to devote
continued attention to breaking down any perceived or actual barriers
between special agents and analysts.

Retention

       To build an appropriately sized analytical corps, it is especially
important that the FBI retain the intelligence analysts it hires. As
shown in the following chart, the attrition rate for analysts has ranged
between 6 and 10 percent from FY 2002 to FY 2006. During FYs 2005
and 2006, 312 intelligence analysts left the FBI’s analytical corps. Of
those who left, 208 left the FBI entirely and 104 took other positions
within the agency. We found that the 12 percent attrition rate for
intelligence analysts located at FBI Headquarters in FY 2006 was
substantially higher than the 5 percent rate in the FBI’s 56 field
offices, and is cause for concern.




                                  - 30 -
                    Attrition rates from FY02 through FY06

                                10
                                8
                                6
               Attrition rate
                                4
                                2
                                0
                                     FY02   FY03      FY04       FY05   FY06
                                                   Fiscal Year


      Source: OIG based on FBI data

       Sixty-five percent of the 60 intelligence analysts we interviewed
during the current audit said they plan to stay with the FBI for at least
the next 5 years, 20 percent said they are not likely to stay, and the
remaining 15 percent said they were uncertain. Analysts who said
they plan to stay with the FBI primarily cited the following reasons:
(1) pride in working for the FBI, (2) rewarding work, and (3) co-
workers. Analysts who expect to leave in the next 5 years primarily
cited the reason as retirement or concerns about their long-term
careers with the FBI. The following table compares data from our
2005 report to our current audit on what analysts reported about their
plans on staying with the FBI.

       Intelligence Analysts Planning to Stay With the FBI
                      (in Percentages)

         Likelihood of                 May 2005 a                       Current
         staying for the
         next 5 years
         Very likely                         38                           43
         Likely                              25                           22
         Unlikely                            12                           13
         Very unlikely                       10                            7
         Don’t know                          14                           15

       Source: OIG interviews of FBI intelligence analysts

       Note (a): Does not add to 100 due to rounding.

       As discussed below, the FBI now performs exit surveys of all
individuals who leave the intelligence analyst position. In addition, to
enhance retention the FBI offers student loan repayments, bonuses,


                                            - 31 -
and an Intelligence Officer Certification program.17 We believe these
are positive efforts that will aid in retaining qualified intelligence
analysts.

       Further, after requesting and receiving an exemption from legal
restrictions, the FBI has increased the intelligence analyst career path
to the GS-15 and Senior Executive Service levels, thereby placing the
FBI on equal footing with other intelligence agencies to compete for
and retain intelligence analysts.18 The ability to promote intelligence
analysts to non-supervisory senior level positions should contribute to
the retention of qualified intelligence analysts.

       To achieve a strategic objective of a well-educated, highly
trained, and appropriately sized analytical work force, the FBI
recognizes that it must retain its well-trained and productive
intelligence analysts. The Assistant Director of the Directorate of
Intelligence stated that the Directorate is actively managing the
retention of intelligence analysts by constantly monitoring the attrition
rate and surveying intelligence analysts to better understand their
career needs. However, the FBI still has not established formal
retention or succession plans as recommended in our prior audit
report, although it agreed to do so. A section chief in the Directorate
of Intelligence told us that there are not enough personnel to develop
formal retention and succession plans. We are skeptical of this
explanation, and we continue to believe that the FBI should establish
formal retention and succession plans and strategies as a part of its
human capital planning effort. Such plans would include forecasts of
attrition, incorporating estimated attrition into hiring goals and
strategies, and efforts to reduce turnover.

Exit Survey

      In response to the OIG’s prior recommendation, the Directorate
of Intelligence developed an exit survey for all professional support

       17
           The Intelligence Officer Certification is a credential that recognizes
achievement in and long-term commitment to the intelligence profession, as
demonstrated through experience, education, and training. All special agents,
intelligence analysts, language analysts, and surveillance specialists are eligible to
participate in the certification program.
       18
             Legislation entitled Making Appropriations for Foreign Operations, Export
Financing, and Related Programs for the Fiscal Year Ending September 30, 2005, and
for Other Purposes, signed on December 8, 2004, provided the FBI with additional
flexibility to hire and retain highly skilled intelligence personnel through an
amendment to Title 5 of the U.S. Code.


                                         - 32 -
personnel leaving their positions in the Directorate. In March 2006,
the Directorate requested that FBI Headquarters and field offices
ensure that all intelligence analysts, language analysts, and physical
surveillance specialists leaving their positions complete an automated
Personnel Exit Survey before their departure. FBI officials stated that
this feedback will be used to continue making improvements in
retention, recruitment, training, leadership, and career development,
among other areas.

     The FBI’s automated Personnel Exit Survey solicits responses
from departing employees in the following areas:

       •    reason for departure
       •    recruiting and initial expectations
       •    training and development
       •    performance management
       •    management and leadership
       •    communication
       •    culture
       •    working conditions and work-life balance
       •    policies

      Although the data is collected as analysts leave, the FBI reported
that the Directorate of Intelligence plans to analyze the survey results
biannually. The Directorate’s Intelligence Personnel Resources Unit
would then prepare a report of findings and share the results with
senior FBI and National Security Branch management.

       At the time of our audit, the results of the initial round of
surveys had not yet been analyzed by the FBI. However, we reviewed
the FBI’s analysis of limited data from its pilot exit survey of 22
analysts who left their positions between July 1, 2005, and
January 31, 2006.19 The reasons cited by the 22 analysts for leaving
their positions included:

       •    unhappy with position — 8
       •    other career opportunity or interests — 6
       •    involuntary — 4
       •    promotion or financial — 2, and
       •    retirement or medical — 2.


       19
          Although only 22 analysts responded, 45 were contacted. Overall, 88
analysts had left their specific positions during the period, but many could not be
reached or had simply changed analyst positions at the FBI.


                                        - 33 -
Conclusion

       The FBI has made progress in improving the hiring, training,
utilization, and retention of intelligence analysts, but in some areas the
progress has been slow and uneven. More than 18 months after our
original report, 10 of the 15 prior OIG recommendations remain open,
and the FBI is still working on key areas such as the lack of (1) threat
and risk-based criteria to determine the number of analysts needed to
meet its mission and to allocate all analysts in both Headquarters and
field offices to where they are most needed, (2) hiring goals based on
the projected need for additional analysts, and (3) succession and
retention plans and strategies with measurable goals.

       However, the FBI has made progress in hiring additional
qualified intelligence analysts since our May 2005 audit report, cut its
vacancy rate in half since FY 2004, and improved analysts’ career path
to help the FBI better compete with other intelligence agencies in the
job market. But its hiring shortfall of 400 analysts in FY 2006
demonstrates the continuing difficulty facing the FBI in attracting
qualified analysts. Further, the lengthening time required to bring
newly hired analysts aboard – nearly a 3-month increase since FY
2004 – is troublesome because it not only slows the entry of analysts
into the FBI workforce but also can result in the FBI losing qualified
candidates.

      We found that job satisfaction of analysts remains strong. Most
believe they are making important contributions to the FBI’s mission.
The FBI also deserves credit for improving the utilization of its
analysts, who for the most part no longer are required to perform
administrative tasks unrelated to their analytical duties.

      The FBI has struggled to establish a strong training curriculum
for analysts. Our prior report described the growing pains in
developing an effective curriculum, and the comments of analysts and
Directorate of Intelligence officials during our current audit show that
the current program, despite several iterations, is still lacking. We
also agree with those analysts and intelligence managers who believe
the training program needs a greater emphasis on the specific skills
analysts need in their FBI positions. We continue to believe that at
least part of the reason for weaknesses in the analyst training program
stems from a lack of adequate input by analysts and other intelligence
professionals in the curriculum development process. Also, although
the FBI established a training evaluation system, it has not been
implemented adequately and is not being used for its intended purpose


                                  - 34 -
of improving the training curriculum. Further, the FBI has not
integrated student testing into the curriculum, although the FBI is
working on establishing a testing program.

      We believe that the professional divide between analysts and
special agents may be lessening somewhat, but barriers to full
acceptance and cooperation between the two groups should be
addressed if the FBI is to most efficiently and effectively apply all its
resources to meeting its highest priority of preventing terrorist acts.
The FBI’s training program does little to foster an environment of
mutual respect between these two categories of professional
employees.

      We believe the FBI’s 9-percent attrition rate for intelligence
analysts is at a reasonable level, although we believe the FBI should
examine the causes for the recent rise in attrition of Headquarters
analysts. While the majority of analysts we interviewed told us that
they plan to stay at least 5 years, the fact that about a third of
analysts we interviewed are planning to leave or are not sure they will
stay for at least 5 years is cause for concern. We continue to believe
that the FBI needs to develop formal retention and succession plans
and strategies, including manageable goals.

Recommendations

    In addition to the 10 open recommendations from our May 2005
audit report to improve its intelligence analyst program, we
recommend that the FBI: 20

    1. Evaluate the hiring and background investigation process to
       identify ways to accelerate the accession of new intelligence
       analysts.

    2. Involve intelligence managers and experienced analysts more
       extensively in training curriculum development efforts.

    3. Make student and supervisor evaluations of analyst training
       mandatory and use the results to identify any needed
       improvements in the curriculum.




      20
           The 10 open recommendations are listed in Appendix 8.


                                      - 35 -
     STATEMENT ON COMPLIANCE WITH LAWS AND
                  REGULATIONS

       We audited the FBI’s management of its efforts to hire, train,
utilize, and retain intelligence analysts. As required by Government
Auditing Standards, we reviewed management processes and records
to obtain reasonable assurance of the FBI’s compliance with laws and
regulations that could have a material effect on FBI operations.
Compliance with laws and regulations applicable to the FBI’s
management of intelligence analysts is the responsibility of the FBI’s
management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •   U.S. Code Title § 5377, pay authority for critical positions

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to those transactions not tested, nothing came to our attention
that caused us to believe that FBI management was not in compliance
with the laws and regulations cited above.




                                 - 36 -
            STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit, we considered the FBI’s
internal controls for the purpose of determining audit procedures. This
evaluation was not made for the purpose of providing assurance on
the internal control structure as a whole. However, we noted certain
matters that we consider to be reportable conditions under the
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its intelligence analysts. As discussed in
the Findings and Recommendations section of this report, we found
that:

      •   The FBI has not determined the total number of intelligence
          analysts it needs.

      •   The FBI did not have a threat-based or risk-based method of
          allocating intelligence analysts to its different divisions and
          field offices.

      •   The FBI does not have a plan to retain current highly qualified
          intelligence analysts.

      Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its intelligence analysts.
This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                   - 37 -
                                                                 APPENDIX 1

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The primary objective of the audit was to follow up on our
May 2005 report on how effectively the FBI hires, trains, utilizes, and retains
its intelligence analysts. To accomplish this objective, we examined the
progress the FBI has made in implementing the 15 recommendations from
our previous report and the current status of the FBI’s intelligence analyst
program compared to our previous report. Specifically, we reviewed:
(1) our 2005 audit report on the FBI’s efforts to hire, train, and retain
intelligence analysts; (2) current analyst hiring requirements; (3) progress
made toward meeting analyst hiring goals; (4) progress made toward
establishing a comprehensive training program and meeting the training
goals; (5) allocation and utilization of analysts to support the FBI’s mission;
and (6) progress toward retaining analysts.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objectives. We conducted work at FBI Headquarters in Washington,
DC, and four FBI field offices: New York, NY; Detroit, MI; Miami, FL; and Los
Angeles, CA. In general, our audit data covered October 1, 2005, through
August 31, 2006.

       To conduct our audit, we interviewed FBI officials and a sample of 60
intelligence analysts and 16 supervisors in the offices we visited. The FBI
officials interviewed were from the Directorate of Intelligence, the
Counterterrorism, Counterintelligence, Criminal Investigative, and Cyber
Divisions, as well as the Administrative Services, Training and Development,
and Finance Divisions. In addition, we reviewed documents related to the
budgeting, hiring, training, utilization and retention of intelligence analysts
including various Concepts of Operations published by the Directorate of
Intelligence, budget documentation, organizational structures, congressional
testimony, and prior GAO and OIG reports.

      To analyze how the FBI determines its requirements for intelligence
analysts and allocates intelligence analysts, we examined the methodologies
the FBI employed to determine the number of intelligence analysts needed,
the number of additional analysts requested in the FBI’s FYs 2005 and 2006
budgets, and its current and future allocation of intelligence analysts. We

                                     - 38 -
accomplished this by examining Finance Division documents, reviewing the
Threat Forecasting and Operational Requirements Concept of Operations
Plan, and interviewing officials from the Directorate of Intelligence and the
Finance and Administrative Services Divisions.

       We interviewed officials from the Directorate of Intelligence about the
automated application system now being used by the FBI. We also
interviewed other FBI officials about the system previously used to hire
intelligence analysts.

       To determine the progress the FBI has made in providing introductory
training to intelligence analysts, we examined curricula for the ACES 1, ACES
1.5, and Cohort courses, and attendance data for the three courses. We also
interviewed officials from the Training and Development Division and the
Intelligence Career Management Section in order to learn more about the
hiring, training, retention, and selection practices for intelligence analysts.
To obtain the perspective of intelligence analysts who have attended the
ACES, ACES 1.5, and Cohort courses, we interviewed selected analysts in the
field offices we visited. In addition, we questioned intelligence analysts on
the topics covered by the courses, suggestions for improvement, and the
courses’ ability to prepare intelligence analysts to do their jobs.

      To determine how FBI intelligence analysts are being utilized, we
interviewed intelligence analysts and their supervisors at FBI Headquarters
and the four field offices we visited.

        To determine the progress the FBI has made in retaining highly
qualified and productive intelligence analysts, we examined the Human
Talent CONOPS and attrition data. We also interviewed officials from the
Directorate of Intelligence to obtain information about the latest retention
initiatives. To determine whether FBI intelligence analysts plan to stay with
the FBI, we included appropriate questions in our interviews.




                                     - 39 -
                                                                  APPENDIX 2

                  DIRECTORATE OF INTELLIGENCE
            MISSION STATEMENT, STRATEGIC GOALS, AND
                     INTELLIGENCE PROCESS

      The stated mission of the Intelligence Program is to optimally position
the FBI to meet current and emerging national security and criminal threats
by:

      •   aiming core investigative work proactively against threats to U.S.
          interests;

      •   building and sustaining enterprise-wide intelligence policies and
          capabilities; and

      •   providing useful, appropriate, and timely information and analysis to
          the national security, homeland security and law enforcement
          communities.

Strategic Goals

      The strategic goals of the Directorate of Intelligence are as follows.

      •   Intelligence Policy — Create a common approach to intelligence
          work through enterprise-wide doctrine, policy, and production
          standards.

      •   Intelligence Processes — Fill intelligence gaps with a uniformly
          managed intelligence process.

      •   Threat-Based Management — Align operations and capabilities with
          the threat environment.

      •   Customer Service — Support internal and external intelligence
          customers and partners with corporate information sharing and
          appropriate support strategies.




                                     - 40 -
Intelligence Process

       Requirements are identified information needs — what must be
known to safeguard the nation. Intelligence requirements are established by
the Director of National Intelligence according to guidance received from the
President and the National and Homeland Security Advisors. Requirements
are developed based on critical information required to protect the United
States from National Security and criminal threats. The Attorney General
and the Director of the FBI participate in the formulation of national
intelligence requirements.

       Planning and Direction is management of the entire effort, from
identifying the need for information to delivering an intelligence product to a
consumer. It involves implementation plans to satisfy requirements levied
on the FBI, as well as identifying specific collection requirements based on
FBI needs. Planning and direction also are responsive to the end of the
cycle, because current and finished intelligence, which support decision-
making, generate new requirements. The Executive Assistant Director for
the National Security Branch leads intelligence planning and direction for the
FBI.

       Collection is the gathering of raw information based on requirements.
 Activities such as interviews, technical and physical surveillances, human
source operation, searches, and liaison relationships result in the collection of
intelligence.

      Processing and Exploitation involves converting the vast amount of
information collected into a form usable by analysts. This is done through a
variety of methods including decryption, language translations, and data
reduction. Processing includes the entering of raw data into databases
where it can be exploited for use in the analysis process.

       Analysis and Production is the conversion of raw information into
intelligence. It includes integrating, evaluating, and analyzing available data,
and preparing intelligence products. The information’s reliability, validity,
and relevance are evaluated and weighed. The information is logically
integrated, put in context, and used to produce intelligence. This includes
both "raw" and finished intelligence. Raw intelligence is often referred to as
"the dots" — individual pieces of information disseminated individually.
 Finished intelligence reports "connect the dots" by putting information in
context and drawing conclusions about its implications.

       Dissemination — the last step — is the distribution of raw or finished
intelligence to the consumers whose needs initiated the intelligence
requirements. The FBI disseminates information in three standard formats:

                                     - 41 -
 Intelligence Information Reports (IIRs), FBI Intelligence Bulletins, and FBI
Intelligence Assessments. FBI intelligence products are provided daily to the
Attorney General, the President, and to customers throughout the FBI and in
other agencies. These FBI intelligence customers make decisions —
operational, strategic, and policy—based on the information. These decisions
may lead to the levying of more requirements, thus continuing the FBI
intelligence cycle.




                                   - 42 -
                                                                                                                                APPENDIX 3

                     DIRECTORATE OF INTELLIGENCE ORGANIZATIONAL CHART




                                                            Assistant Director




                 DAD for Intel             CTD        CD                WMDD         CID             CyD         DAD for Intel
                                                                         SC
                  Operations               DAD        SC                             SC              SC            Program
                 Management                                                                                      Management




Field Intelligence         Language Services     Intel Management                          Intel Career Mgmt.       Intel Program
     Section                   Section                 Section                                   Section            Mgmt. Section


  Field Oversight           National Virtual     Current Intelligence                        Intel Career          Security Office
        Unit               Translation Center           Unit                               Development Unit


Human Intel Mgmt.          Language Resource         Intelligence                          Intel Certification     Admin Support &
      Unit                  & Planning Unit         Relations Unit                                Unit           Budget Execution Unit



Human Intel Policy &       Language Testing       Intel. Requirements &                     Intel Personnel      Intel Budget Formulation
Special Programs Unit                            Collection Mgmt. Unit I                                             & Oversight Unit
                           & Assessment Unit                                                Resources Unit


                           Language Training      Intel. Requirements &                       Training &         Intel Program Analysis
                                                 Collection Mgmt. Unit II                                          & Evaluation Unit
                                 Unit                                                        Oversight Unit


                             Operations          Strategic Analysis                                               Tech. Planning &
                           Management Unit       & Production Unit                                                Ops Support Unit


                            Quality Control         Targeting &                                                  Threat Forecasting
                                 Unit             Exploitation Unit                                               & Planning Unit


                             Translation &
                           Deployment Unit I


                             Translation &
                           Deployment Unit II


                             Translation &
                           Deployment Unit III




          Source: FBI




                                                                            - 43 -
                                                                  APPENDIX 4

                  NATIONAL SECURITY BRANCH (NSB)
                 MISSION, VISION, AND ORGANIZATION

Mission Statement

       The mission of the NSB is to optimally position the FBI to protect the
United States against weapons of mass destruction, terrorist attacks, foreign
intelligence operations, and espionage by:

      • integrating investigative and intelligence activities against current
        and emerging national security threats;

      • providing useful and timely information and analysis to the
        intelligence and law enforcement communities; and

      • effectively developing enabling capabilities, processes, and
        infrastructure, consistent with applicable laws, Attorney General and
        Director of National Intelligence guidance, and civil liberties.

Vision Statement

       To the extent authorized under the law, build a national awareness that
permits recognition of a national security threat, sufficiently early to permit
its disruption. This will be a discerning process that promotes the collection
of relevant information and minimizes the accumulation of extraneous data
that unnecessarily distracts from the analytical process.




                                     - 44 -
               National Security Branch Organizational Chart




Source: FBI website




                                  - 45 -
                                                             APPENDIX 5

                MEMBERS OF THE UNITED STATES
                  INTELLIGENCE COMMUNITY


       The Directorate of National Intelligence acts as head of the U.S.
Intelligence Community. The members of the U.S. Intelligence Community
include the following organizations and entities:

     •   Air Force Intelligence
     •   Army Intelligence
     •   Central Intelligence Agency
     •   Coast Guard Intelligence
     •   Defense Intelligence Agency
     •   Department of Energy
     •   Department of Homeland Security
     •   Department of State
     •   Department of the Treasury
     •   Drug Enforcement Administration
     •   Federal Bureau of Investigation
     •   Marine Corps Intelligence
     •   National Geospatial-Intelligence Agency
     •   National Reconnaissance Office
     •   National Security Agency
     •   Navy Intelligence




                                   - 46 -
                                                   APPENDIX 6

                ACRONYMS

ACES-1   Analytical Cadre Educational Strategy 1
BIA      Basic Intelligence Analyst
CAS      College of Analytical Studies
CONOPS   Concept of Operations
EAD      Executive Assistant Director
EOD      Enter on Duty
FBI      Federal Bureau of Investigation
FSL      Funded Staffing Level
FY       Fiscal Year
GAO      Government Accountability Office
GS       General Schedule
HQ       (FBI) Headquarters
IIR      Intelligence Information Report
NSB      National Security Branch
OIG      Office of the Inspector General
OPM      Office of Personnel Management




                     - 47 -
                                                                APPENDIX 7

 STRUCTURED INTERVIEW QUESTIONS AND SUMMARY RESPONSES



      Based on our previous audit report survey and field office interviews,
during the current audit we compiled a list of questions to ask intelligence
analysts (IA) and their supervisors. The questions were intended to obtain
information on a limited judgmental sample of analysts and analysts’
supervisors concerning their views, opinions, experiences, demographics,
and suggestions on the FBI’s current recruitment, hiring, training, and
retention practices. The answers to the questionnaire are in italics.

                   Intelligence Analysts Questionnaire

1.    Name:

2.    Current grade:

      GS-7 – 6
      GS-9 – 13
      GS-11 – 15
      GS-12 – 16
      GS-13 – 6
      GS-14 – 4

3.    Assigned location:

      Headquarters – 20
      Detroit – 10
      Los Angeles – 10
      Miami – 10
      New York – 10




                                    - 48 -
4.   Current division within the FBI:

     Counterterrorism – 21
     Counterintelligence – 15
     Counterintelligence – 5
     Criminal Investigation – 12
     Cyber – 4
     Directorate of Intelligence – 3

5.   Name of supervisor(s): variable

6.   Work experience prior to the IA position:

     FBI – 19
     Government – 8
     Military – 3
     School – 8
     Private Sector - 22
            IT – 4
            Teacher – 2
            Finance – 6
            Law – 7
            Science – 2
            Program Management – 1

7.   When did you become a GS-132 intelligence analyst at the FBI?

     2006 – 8
     2005 – 17
     2004 – 15
     2003 – 5
     Prior to 2002 – 15

8.   What was your GS level when you became a GS-132?

     GS-7 – 15
     GS-9 – 22
     GS-11 – 16
     GS-12 – 5
     GS-13 – 2




                                   - 49 -
9.    What is your highest educational level (High School, Associate,
      Bachelor’s, Master’s, Doctorate, or Law)?

      High School – 4
      Associates – 1
      Bachelor’s – 25
      Master’s – 20
      Doctorate – 2
      Law – 8

10.   Do you have any critical language skills? If so, at what language and
      level? Have you received language testing at the FBI?

      Yes – 12
      Of those who answered yes, 2 were tested.

11.   Are you a Presidential Management Fellow?

      Yes – 3

12.   Did you have military intelligence experience prior to becoming a FBI
      Intelligence Analyst?

      Yes – 8

13.   Did you have U.S. Intelligence Community (USIC) experience prior to
      becoming an FBI Intelligence Analyst? Is so, where and for how long?

      Of the 9 who answered yes, 5 had prior USIC experience, and
      4 worked with the FBI prior to becoming an intelligence analyst.

14.   How closely do your expectations of the IA job prior to your start
      match the work you do now? Feel free to explain (i.e., is the job what
      you thought it would be).

       Very Closely – 13
       Closely – 16
       Somewhat Closely – 17
       Not Closely – 11
       Not at all Closely – 3




                                    - 50 -
15.   In the average month in the last year, what percentage of your time
      did you spend on each of the following categories of work?

      Type of work                0-24%     25-49%    50-74%   75-100%


      Work requiring                5            13     24        8
      analytical skills


      Program management           33            15     6         4
      (Tasks often
      performed by
      Headquarters, e.g.,
      getting approval for
      warrants under the
      Foreign Intelligence
      Act (FISA). May also
      refer to providing
      expert advice to aid in
      intelligence collection.)


      Administrative duties        22            19     6         1
      related to your role
      (all-source analysts,
      reports officers, or
      operations specialists.)


      Administrative duties        55            2      2         0
      not related to your job
      role


      Other (please specify)       15            1      1         1




                                        - 51 -
16.   How satisfied are you with the types of work assignments
      you receive?

      Extremely Satisfied – 8
      Very Satisfied – 18
      Satisfied – 26
      Unsatisfied – 6
      Very Unsatisfied – 2

17.   On which of the following have you worked in the last 3 months?


           Intelligence Information Report                29
           Intelligence Bulletin                          15
           Intelligence Assessment                        33
           Presidential Terrorism Threat Report            0
           Director’s Daily Report                         6
           Developing a Foreign Intelligence
                                                           8
           Surveillance Act (FISA) package
           Managing the approval of a FISA package         3
           Reviewing FISA take                            14
           Threat assessment                              40
           Asset validation review                        11
           Source Validation                              13
           Vetting new informants                         12
           Electronic Communication (EC) on
                                                          41
           intelligence topics
           Intelligence research to support specific
                                                          47
           field office cases
           Background checks, name checks, and
                                                          41
           related research
           Telephone analysis                             32
           Taskings from the Directorate of
                                                          16
           Intelligence
           Administrative duties related to your job
                                                          48
           (please provide examples)
           Administrative duties NOT related to your
                                                          23
           job (please provide examples)
           Other (please specify)                         11
           None                                            0




                                   - 52 -
18.   How often do you think special agents understand the functions and
      capabilities of an intelligence analyst?

      Very often – 3
      Often – 12
      Sometimes – 33
      Rarely – 10
      Not at all – 1
      N/A – 1

19.   How intellectually challenging is your work as an FBI intelligence analyst?

      Very challenging – 15
      Challenging – 34
      Unchallenging – 8
      Very unchallenging – 3

20.   Based on your work as an FBI intelligence analyst, rate your level of
      contribution to the mission of the FBI.

      Very high – 15
      High – 23
      Average – 21
      Below average – 0
      Low – 1

21.   Are there any terms currently used to describe intelligence analysts (such as
      “support staff”)? If so, do these terms evoke a negative feeling in you when
      heard?

      Yes – 32
      No – 28

22.   Did you attend the introductory analyst training at the FBI’s College of
      Analytical Studies? Which one – ACES I or II or Cohort?

      ACES – 44
      Cohort – 11
      Introductory class before ACES – 1
      Scheduled to take ACES – 3
      No Scheduled – 1



                                    - 53 -
23.   When did you attend the CAS?

       Year
       2003   –   2
       2004   –   7
       2005   –   29
       2006   –   18

24.   How well did the introductory analyst training meet your expectations for
      helping you do your job?
           Greatly exceeded expectations – 1
           Exceeded expectations – 2
           Met expectations – 20
           Did not meet expectations – 21
           Completely failed to meet expectations – 12
25.   In reference to the introductory analysts training, what should be improved
      upon?*

      Specialized training (specifically job roles) – 8
      Practical exercises for practical skills (intelligence analysts’ job tasks) -
      24
      Length of class was too long – 16
      More interaction with special agents – 5
      Poor technology – 4
      Feedback ignored – 2

26.   What was done well?*

      Networking – 6
      CIA presentations – 14
      Overview of FBI presentations – 2
      Case Agent/Case Group exercise – 12
      IIR training, Title III training – 5

27.   What do you remember most from the training?*

      Networking – 29
      CIA courses – 3
      Certain courses – analytical skills, Briggs test, Title III, IIR writing – 20

* Due to the number of different responses, we listed the most common.



                                         - 54 -
28.   Do you believe the class was taught by knowledgeable personnel with
      relevant experience? If not, please explain.

      Yes – 36
      No – 3
      Some – 17

29.   How satisfied are you with the promotion process for FBI intelligence
      analysts?

         Extremely satisfied – 3
         Very satisfied – 6
         Satisfied – 18
         Unsatisfied – 10
         Very unsatisfied – 9
         N/A – 14


30.   How likely is it that you will stay with the FBI as an intelligence analyst for
      the next five years?

      Very likely – 26
      Likely – 13
      Unlikely – 8
      Very unlikely – 4
      Don’t know – 9




                                     - 55 -
31.   If you responded “unlikely” or “very unlikely,” please explain why and
      what would make you stay. If you responded “very likely” or “likely,”
      why? If you responded “don’t know,” what are your deciding factors?*

      Reasons to stay

      Likes working for the FBI – 3
      Satisfying job – 2

      Reasons to leave

      Lack of career path, career track, career potential – 4
      Intelligence program needs to continue to grow – 2
      Difficulty of transferring to other divisions/units – 2
      Incorrect positioning – 4*

32.   With regard to the entire hiring process, including the background
      investigation, did you experience any problems or complications? If so,
      please explain.

      No – 34
      Yes – 26

      Some examples of problems

      Too long of a process
      Forms/information lost
      FBI did not accept other government clearances
      Difficulty transferring from agent to analyst
      Not informed of duty location until arrival at training (first day on
      the job)
      Many were misinformed by points of contact (grade level, tuition
      reimbursement)

* Due to the number of different responses, we listed the most common.




                                         - 56 -
33.   How much time did it take from your background investigation until
      your entry on duty date?

      3-5 months – 13
      6-8 months – 17
      9-11 months – 7
      1 year – 5
      Already in the government – 13
      Could not remember – 5

34.   Identify any impediments in the hiring process that affect the FBI’s
      ability to hire analysts as quickly as possible and the FBI’s ability to
      hire the best-qualified candidates. How could they be improved?*

      Salary – 14
      Limited signing bonuses – 3
      Unreliable point of contact – 13
      Complicated Quickhire – 7
      Attitude of “support” – 1
      Difficult promotion process – 3
      Long background checks – 10
      Strict drug policy – 2
      Administrative hurdles – 5

35.   Are there any additional comments you would like to give concerning
      the hiring, training, utilization, and retention of intelligence analysts?*

      Intelligence analysts not hired in the last couple of years would like to see
      financial incentives not geared toward new hires – 7
      New hires were promised higher grade levels than received - 5
      Higher salary – 5
      Improved structure of the analyst program and promotion process – 9
      Better training – 8
      Lack of tools, including IT – 2
      Many analysts leave for contractors because of better pay – 1
      Poor placement of analysts – 3
      Directorate of Intelligence policies and guidance change daily – 1
      Better transfer policy – 4

* Due to the number of different responses, we listed the most common.




                                         - 57 -
                                                                  APPENDIX 8


           OPEN RECOMMENDATIONS FROM PRIOR REPORT

      In the OIG's May 2005 report, entitled The Federal Bureau of
Investigation’s Efforts to Hire, Train, and Retain Intelligence
Analysts, we made 15 recommendations to the FBI. Of the 15
recommendations, 5 have been closed. The 10 open recommendations are:

  •   establish hiring goals, for intelligence analysts based on: a) the
      forecasted need for intelligence analysts; b) projected attrition in the
      analyst corps; and c) the FBI’s ability to hire, train, and utilize
      intelligence analysts;

  •   develop and implement a threat-based or risk-based methodology for
      determining the number of intelligence analysts required;

  •   develop and implement a threat-based or risk-based methodology for
      allocating intelligence analyst positions across the FBI’s Headquarters
      divisions and field offices;

  •   link the methodology for allocating intelligence analyst positions to the
      Human Talent Requirements Forecast;

  •   develop a methodology to determine the number of staff needed to
      teach ACES-1 and a plan to staff ACES-1 with FBI personnel, including
      experienced intelligence analysts;

  •   integrate testing into the ACES-1 curriculum;

  •   require all special agents to attend some mandatory training on the
      role and capabilities of intelligence analysts;

  •   assess the work done by intelligence analysts and determine what
      work is analytical in nature and what work is in general support of
      investigations that can more efficiently be performed by other support
      or administrative personnel;

  •   develop a strategic workforce plan for intelligence support personnel,
      and include in that plan a gap analysis of current investigative support
      personnel (by position) and the number (by position) the FBI needs to
      meet current and forecasted threats; and



                                     - 58 -
•   develop retention and succession plans and strategies for its
    intelligence analysts, including measurable goals.




                                  - 59 -
                                   APPENDIX 9

THE FBI’S RESPONSE TO THE DRAFT REPORT




                - 60 -
- 61 -
- 62 -
- 63 -
                                                          APPENDIX 10

OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
         OF ACTIONS NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to the FBI for its
review and comment. The FBI’s written response is included in
Appendix 9 of this final report. The FBI concurred with the three
recommendations in the audit report and also provided comments
regarding some issues examined in the report. Our analysis of the
FBI’s response follows.

FBI’s General Comments

      In its response, the FBI concurred with the report’s three
recommendations and also acknowledged the need for continued
improvement in order to achieve an optimally integrated and
functional analytic cadre.

       In addition, the FBI referred to the OIG’s conclusions regarding
deficiencies in its intelligence analyst training program – and stated
that the OIG may have been able to obtain a more complete picture of
the FBI’s training environment if the OIG had been able to incorporate
improvements made by the FBI since August of 2006, when fieldwork
for the audit ended. While we agree that the FBI may have made
progress since the completion of our fieldwork, we also note that our
review found that the FBI had made little progress on our training-
related recommendations in the 15 months between the issuance of
our May 2005 report and the end of fieldwork.

       The FBI’s comments also discussed the OIG’s methodology in
conducting our review. The FBI noted that the OIG conducted
interviews with a limited sample of approximately 60 intelligence
analysts and drew some conclusions based on smaller subsets.
However, this audit was a follow-up to our May 2005 report in which
the OIG discussed the results of a formal survey it sent to all of the
FBI’s intelligence analysts employed at the time (approximately 1,247)
and also included interviews of a sample of analysts. A follow-up audit
by design concentrates on the actions taken in response to the
previous recommendations, provides a general assessment of changes
since the last audit, and seeks to identify any new or emerging
concerns. While our sampling was more limited in the follow-up audit
than in the original audit, we interviewed a significant number of




                                  - 64 -
intelligence analysts and found their responses were similar to the
results of our larger sample in the initial audit.

       In addition, we believe the judgmental sample of 60 intelligence
analysts and 16 intelligence analysts’ supervisors we interviewed
provides a fair representation of the overall analyst population. We
interviewed intelligence analysts from a variety of grade levels,
divisions, and locations and received consistent responses. The
selection of the analysts to interview was not biased in any way. Nor
do we have any indications that a larger sample would have provided a
“fuller and more balanced picture of the FBI’s environment,” as the FBI
suggests.

      The FBI’s response also stated that individual opinions cited in
the report may not accurately represent the nature of its initiatives.
However, we believe the insights of the knowledgeable officials we
interviewed are important to assessing the progress the FBI has made
in improving its intelligence analyst program.

Status of Recommendations

1. Resolved. The FBI agreed with this recommendation. In its
response to the draft report, the FBI described the actions it is taking
to streamline the hiring process. This recommendation can be closed
when we receive documentation demonstrating that the FBI has
identified improvements in the hiring and background investigation
process that accelerate the accession of new intelligence analysts.

2. Resolved. The FBI concurred with this recommendation. The FBI
also stated that it has consistently used both “subject matter experts”
and “managers” throughout the development of intelligence analyst
training. The intent of our recommendation was to specifically involve
experienced intelligence analysts and supervisory analysts or
intelligence managers in efforts to improve the curriculum. The FBI is
not now doing so, and we noted little or no difference between the
ACES curriculum and the Cohort curriculum that replaced it, despite
the involvement of “subject matter experts and managers.”
Knowledgeable FBI officials we interviewed told us that intelligence
analysts have had limited input to the development of the training
curriculum. The FBI’s response also noted that it is currently
reviewing the basic intelligence analysis course and anticipates its roll-
out in June 2007. This recommendation can be closed when we
receive documentation demonstrating that intelligence managers and



                                  - 65 -
experienced analysts are more extensively involved in the
development of the training curriculum.

3. Resolved. The FBI concurred with this recommendation. In its
response, the FBI described its use of Level 1 evaluations and
feedback sessions with each Cohort class to evaluate and refine the
curriculum. Additionally, Level 2-5 evaluations will go forward when a
new job task analysis and competency review are completed in mid-
2007. Further evaluations will be implemented when the Intelligence
Basic Course has been revised. This recommendation can be closed
when we receive documentation demonstrating that the FBI has made
student and supervisor evaluations of analyst training mandatory and
uses the results to identify and make improvements to the curriculum.




                                - 66 -
